SEMIANNUAL
REPORT TO CONGRESS
APRIL 1, 2013 TO SEPTEMBER 30, 2013
EXPORT-IMPORT BANK OF THE UNITED STATES (Ex-Im Bank) is the official export credit
agency of the United States. Ex-Im Bank supports the financing of U.S. goods and services in
international markets, turning export opportunities into actual sales that help U.S. companies
of all sizes to create and maintain jobs in the United States.


Ex-Im Bank assumes the credit and country risks that the private sector is unable or unwilling
to accept. Ex-Im Bank also helps U.S. exporters remain competitive by countering the export
financing provided by foreign governments on behalf of foreign companies. More than 80
percent of Ex-Im Bank’s transactions have been made available for the direct benefit of U.S.
small businesses in recent years.


More information about Ex-Im Bank is at www.exim.gov.


THE OFFICE OF INSPECTOR GENERAL (OIG), an independent office within Ex-Im Bank, was
statutorily created in 2002 and organized in 2007. The mission of Ex-Im Bank OIG is to conduct
and supervise audits, investigations, inspections, and evaluations related to agency programs and
operations; provide leadership and coordination as well as recommend policies that will promote
economy, efficiency, and effectiveness in such programs and operations; and prevent and detect
fraud, waste, abuse, and mismanagement.


The OIG is dedicated to acting as an agent of positive change to help Ex-Im Bank improve its
efficiency and effectiveness. It keeps Ex-Im Bank’s Chairman and President and Congress fully
informed about problems and deficiencies along with any positive developments relating to
Ex-Im Bank administration and operations.


More information about the OIG including reports of audits and evaluations is at
www.exim.gov/oig.


Information about Inspectors General in the U.S. government is at www.ignet.gov.
Contents
	 3	 From the Inspector General

	5	Highlights

	 9	 Office of Inspector General management initiatives

	 11	 Ex-Im Bank management challenges

	 17	 Government Accountability Office

	 23	 Office of Audits

	 24	 Summary of audit activities

	 24	 Reports issued

	 25	 Ongoing audits

	 29	 Office of Inspections and Evaluations

	 30	 Reports issued

	 32	 Ongoing inspection assignments

	 33	 Other ongoing assignments

	 37	 Office of Investigations

	 38	 Summary of accomplishments

	 38	 Summary of investigations

	 39	 Summary of investigative results

	41	 Investigations

	 42	 Ex-Im Bank program integrity

	 51	 Other investigative results

	 53	 Hotline activity

	 57	 Appendix A Recommendations from prior reporting periods

	 59	 Appendix B Peer review reporting

	 61	 Appendix C Abbreviations and Acronyms

	 63	 Appendix D Inspector General Act Reporting Requirements




                                                                Office of Inspector General | Export-Import Bank of the United States   1
From the Inspector General
We are pleased to report our last six months’ work. Our office continues to enhance the viability,
soundness, efficiency, and effectiveness of the Export-Import Bank of the United States (Ex‑Im
Bank) as an institution and lender of last resort. Ex-Im Bank has experienced significant asset growth
over the past several years, specifically through its Direct Loan Program. The challenging economic
environment, changes in the composition of its product portfolio, and Congressional interest led us
to focus on this growth in the Direct Loan program as represented by two reports issued this period.


      Our office issued an audit entitled Ex-Im Bank’s Management of Direct Loans and
      Related Challenges. This audit recommended that Ex-Im Bank: (1) maintain additional
      documentation to support the need for Ex-Im Bank financing; (2) adopt key Office of
      Management and Budget and U.S. Department of Treasury policies by revising agency
      policies and procedures; (3) develop mechanisms to ensure compliance with Federal and
      agency credit program policies; and (4) evaluate recordkeeping practices and implement
      a plan to timely address deficiencies. Management concurred with the recommendations,
      which will be closed upon completion and verification of corrective action.


      The OIG also concluded an inspection of the Minera y Metalurica del Boleo S.A. (Boleo)
      mine project. Boleo was the recipient of a $420 million Ex‑Im Bank direct loan originally
      authorized by Ex-Im Bank for the extraction of copper-cobalt-zinc from the Boleo mine
      located in Mexico. Shortly after the authorization, the borrower informed Ex‑Im Bank
      of a substantial cost overrun for the project. The Boleo project eventually entered into
      default and Ex-Im Bank successfully restructured the transaction at no cost to taxpayers.
      Currently, Ex-Im Bank has no direct exposure to the Boleo project.


In addition, our office continued its focus on investigating fraud related to Ex-Im Bank transactions
and strengthening our ability to investigate and prosecute export fraud globally. Specifically, during
this reporting period, the OIG obtained approximately $54,370,505 in criminal restitution, forfeiture,
and fines as the result of 13 criminal judgments arising out of investigations conducted by the OIG.
Furthermore, during this reporting period, the OIG continued to enhance its investigative capabilities,
investigative support, and outreach efforts by conducting several training and seminar sessions with
commercial banks that participate in export finance activities.


All of these accomplishments would not be possible without the hard work, professionalism,
and dedication of our excellent staff.




OSVALDO L. GRATACÓS




                                                                        Office of Inspector General | Export-Import Bank of the United States   3
Highlights
The Inspector General provided testimony at the June 13, 2013 Congressional hearing
entitled “Assessing Reform at the Export-Import Bank”, U.S. House of Representatives,
Committee on Financial Services, Subcommittee on Monetary Policy and Trade.1 Other
witnesses included Mathew Scire, Director of Financial Markets and Community Investment
with the Government Accountability Office, and Fred Hochberg, Chairman and President of
the Export-Import Bank.


The Office of Audits completed one audit during the six months ending on
September 30, 2013:
                                                                                                                At a glance
                                                                                                                •  Direct loans

                                                                                                                •  Loans in Mexico
Ex-Im Bank’s Management of Direct Loans and Related Challenges
(OIG-AR-13-05; September 26, 2013)                                                                              •  Criminal judgments

   Between fiscal years 2007 and 2012, Ex-Im Bank’s exposure to direct loans tripled
   from 9 percent to 27 percent of the total portfolio. As a result, we reviewed Ex-Im
   Bank’s management of direct loan transactions, including its compliance with Federal
   and agency credit program policies. Our audit included a sample of 6 of the 40 direct
   loans authorized and managed by the Structured & Project Finance Division between
   fiscal years 2010 and 2012. These sampled loans were underwritten by approximately
   half of the division’s loan officers and equaled $7.3 billion (or 33 percent) of the total
   $22.4 billion in loans authorized during the period.


   Generally, the audit found that as a result of inadequate recordkeeping, overreliance
   on institutional knowledge, and a lack of mechanisms necessary to ensure compliance
   with Federal and agency credit program policies, Ex-Im Bank loan officers and other
   personnel did not always document sufficient evidence for borrower statements
   regarding the need for Ex-Im Bank financing, or perform or document performance
   of other required tasks.


   We recommended that Ex-Im Bank (1) maintain additional documentation to support
   the need for Ex-Im Bank financing; (2) adopt key Office of Management and Budget
   and U.S. Department of Treasury policies by revising agency policies and procedures;
   (3) develop mechanisms to ensure compliance with Federal and agency credit
   program policies; and (4) evaluate recordkeeping practices and implement a plan
   to timely address deficiencies found. Management concurred with the recommendations,
   which will be closed upon completion and verification of corrective action.




1 See: http://financialservices.house.gov/calendar/eventsingle.aspx?EventID=337124 and
www.exim.gov/oig/reports/upload/06-13-13-M P-Gratacos-lnvite-Letter-and-Written-Statement-508b.pdf




                                                                       Office of Inspector General | Export-Import Bank of the United States   5
                 Highlights


                                    The Office of Inspections and Evaluations completed one inspection report for the
                                    period ending September 30, 2013:

                                    Report on Minera y Metalurica del Boleo S.A.
                                    (OIG-INS-13-01; September 30, 2013)

                                        Minera y Metalurica del Boleo (Boleo) was an approximately $420 million direct
                                        loan originally authorized by Ex-Im Bank for the extraction of copper-cobalt-zinc from
                                        a mine located in Mexico. Shortly after the authorization, the borrower informed
                                        Ex-Im Bank of a substantial cost overrun for the project. The Boleo project eventually
                                        entered into default and Ex-Im Bank successfully restructured the transaction at no
                                        cost to taxpayers. Currently, Ex-Im Bank has no direct exposure to the Boleo project.
                                        A thorough inspection of the Boleo direct loan transaction conducted by the Office of
                                        Inspector General’s Office of Inspections and Evaluations revealed that: the borrower
                                        failed to disclose significant cost overruns in a timely manner and provided inaccurate
                                        representations to Ex-Im Bank; there were allegations of fraud related to one of the
                                        project’s local vendors; and Ex-Im Bank’s current policies and procedures related to
                                        the reimbursement of local costs may not be sufficiently developed to guard against
                                        waste, fraud, and abuse by local suppliers. Moreover, in our estimation, Ex-Im Bank
                                        lacks the infrastructure and resources to effectively process the high volume of local
                                        cost disbursements associated with this project. Finally, we noted that Ex-Im Bank’s
                                        character, reputational, and transaction integrity or Know Your Customer procedures
                                        for local cost vendors would benefit from a broader review of local public sources and
                                        more frequent application.


                                        In general we made several recommendations, amongst them that Ex-Im Bank (1)
                                        review internal credit analysis and approval procedures with a view to improving its
                                        transaction risk assessment and Budget Cost Levels classification and to ensure the
                                        independence and objectivity of the credit evaluation process; (2) implement a risk–
                                        based approach to monitoring that specifically identifies and addresses the potential
                                        vulnerabilities of the transaction; (3) strengthen its Know Your Customer and local due
                                        diligence procedures by expanding its review of local public sources and conducting
                                        the analysis periodically throughout the life of the transaction; and (4) establish a
                                        streamlined, automated electronic invoice submittal system with a client web portal
                                        that seamlessly provides input for loan disbursement and data tracking control, review
                                        and processing purposes, covering both local costs and U.S. exports. With respect
                                        to Boleo, this approach would suggest a more pro-active focus on the performance
                                        of the engineering, procurement, and construction management contractor; budget
                                        revisions such as project change orders; and more “boots on the ground” inspections
                                        of the project. Management concurred with the recommendations, which will be
                                        closed upon completion and verification of corrective action.




6   Office of Inspector General | Export-Import Bank of the United States
The Office of Investigations accomplished the following actions:
  •  Obtained   13 criminal judgments resulting in 130 months’ imprisonment, 396 months’
    probation, and $54,370,505 in criminal restitution, forfeiture, and fines.
  •  Obtained   three administrative actions stemming from referrals of active investigative
    information resulting in $110,000 in payments to Ex-Im Bank and a cost savings of
    $750,000 by protecting U.S. taxpayer funds at risk.
  •  Obtained   four plea agreements entered in court by subjects pursuant to ongoing
    investigative matters.
  •  Provided   37 reports of investigative information to Ex-Im Bank Office of General
    Counsel concerning potential funds at risk to support enhanced due diligence efforts
    in approving, processing, and monitoring export credit loan guarantees and insurance
    policies.
  •  Referred   one investigative matter to the U.S. Department of Justice for prosecutive
    decision.
  •  Closed   nine investigations after concluding all remaining actions and prosecutive results
    in those cases and, additionally, closed further investigative review of approximately
    $29.5 million in suspected claims that had been under investigation.




                                                                   Office of Inspector General | Export-Import Bank of the United States   7
Office of Inspector General management initiatives
International collaboration
The Office of Inspector General (OIG) participates in meetings with the Berne Union,
the worldwide organization of export credit, insurance, and investment agencies. These
meetings allowed the OIG to discuss areas of interest in the export credit field and to
benchmark Ex-Im Bank’s practices with other export credit agencies.


Since the majority of OIG investigations and inspections are focused on international
transactions, the OIG continually seeks to partner with international organizations to
collaborate and exchange ideas and information on how to work together in identifying,
preventing, and investigating fraud.


Council of Inspectors General on Integrity and Efficiency
The OIG participates in the Professional Development Committee of the Council of
Inspectors General on Integrity and Efficiency (CIGIE). The committee provides educational
opportunities, supports the development of personnel, provides opportunities for training
and development of OIG staff, and establishes training to meet continuing education
requirements. The Office of Inspections and Evaluations participates in the CIGIE Inspection
and Evaluation Committee, which leads the development of protocols for reviewing
management issues that cut across departments and agencies, promotes the use of
advanced program-evaluation techniques, and fosters awareness of evaluation and
inspection practices in OIGs.


Review of legislation and regulations
Pursuant to section 4(a)(2) of the Inspector General Act of 1978, as amended, the OIG
reviews proposed and existing legislation and regulations related to Ex-Im Bank’s programs
and operations.


President Policy Directive (PPD) 19: “Protecting Whistleblowers with Access to Classified
Information”:
  PPD-19 prohibits whistleblower retaliation against individuals holding security
  clearances and prohibits retaliation in accessing classified information. PPD-19 further
  instructed government agencies, including intelligence agencies, to develop policies
  and procedures implementing this policy directive. The policy directive provides for an
  Inspector General review panel to conduct independent reviews of agency decisions
  under this policy directive. The OIG is working with Ex-Im Bank to ensure that the
  policy they develop includes an Ex-Im Bank–wide policy and the processes required by
  the directive.




                                                                 Office of Inspector General | Export-Import Bank of the United States   9
Ex-Im Bank management challenges
Beginning in February 2012, under the Government Performance and Results Act (GPRA)
Modernization Act of 2010, Ex-Im Bank must prepare a performance plan to establish
performance goals and indicators, describe how the goals will be achieved and measured,
and describe major management challenges and plans to address such challenges. The
law defines “major management challenges” as “programs or management functions…
that have greater vulnerability to waste, fraud, abuse, and mismanagement (such as issues
identified by an Inspector General) where failure to perform well could seriously affect the
ability of an agency to achieve its mission or goals.”
                                                                                                           Challenges
                                                                                                           Human capital
The OIG has identified several top management challenges. Addressing these challenges
                                                                                                           IT management
would provide Ex-Im Bank with a more efficient capability to meet its mission of creating
                                                                                                           Strategic and performance
and maintaining jobs in the U.S. through export financing. We will review and update these
                                                                                                               planning
challenges semiannually.                                                                                   Risk management
                                                                                                           Customer service
HUMAN CAPITAL. The OIG has noted Ex-Im Bank’s low number of underwriters, asset                            Credit underwriting
managers, and compliance personnel relative to the increasing size of its asset exposure.                  Due diligence
During the past five years, Ex-Im Bank has witnessed significant asset growth to more than                 Governance, processes
$100 billion as of fiscal year (FY) 2012, with more than $35 billion in authorizations in FY                   and control

2012 and approximately $30 billion in FY 2013 alone. This increase in workload undertaken                  Energy

by the same level of staffing might contribute to diminished customer service, oversight,                  Small business

and due diligence. To better serve its customers and provide effective underwriting and
oversight, Ex-Im Bank should reassess the assignment of resources, and review and adjust
staffing levels and requisite in-house expertise to reflect the record growth in authorizations
and asset portfolio management.


INFORMATION TECHNOLOGY (IT) MANAGEMENT. Ex-Im Bank uses an ineffective,
inefficient, and fragmented IT platform and infrastructure in several systems and databases.
These systems and databases do not effectively and accurately interface—compromising
data integrity, producing duplicative information, and creating unreliable files. These
systems make data mining burdensome and time-consuming. This ineffective IT platform
compromises the ability of Ex‑Im Bank to provide timely service, effectively manage and track
its programs, measure progress, identify transaction patterns, and increase productivity.


Ex-Im Bank is currently working on designing, developing, and implementing a new
comprehensive IT infrastructure to improve its operations.


STRATEGIC AND PERFORMANCE PLANNING. Under the GPRA Modernization Act of
2010, Ex‑Im Bank was required to produce a strategic plan, an annual performance plan




                                                                  Office of Inspector General | Export-Import Bank of the United States   11
                  Ex-Im Bank management challenges


                                     (APP), and an annual performance report by February 2013. Although Ex-Im Bank issued
                                     a five-year strategic plan in 2010, in our opinion, it has not developed a comprehensive
                                     APP in accordance with Office of Management and Budget guidance to quantify the effect
                                     and success of its program and operations properly. An effective strategic plan describes
                                     goals the agency aims to achieve, what actions the agency will take to realize those goals,
                                     and how the agency will deal with challenges and risks that may hinder achieving results.
                                     An APP offers a framework to measure the costs, benefits, results, and outcomes of its
                                     products, programs, and initiatives.


                                     RISK MANAGEMENT. Given Ex-Im Bank’s position as a “lender of last resort”, its
                                     authorizations have grown in record numbers to support U.S. exports as private lending
                                     has contracted or plateaued. Ex-Im Bank’s significant asset growth during the past
                                     five years, however, presents a continual risk management challenge—how to allocate
                                     reserves to cover potential losses in its credit portfolio so that taxpayers are not affected by
                                     unforeseen events.


                                     Lessons learned from the most recent financial crisis include the inadequacy of overreliance
                                     on historical, quantitative market data and the need for more robust scenario analysis and
                                     stress testing. Different theories have emerged to supplement traditional risk-management
                                     models. They encourage supplementing quantitative data with contextual qualitative data
                                     and the testing of worst-case scenarios to determine whether institutions have the requisite
                                     reserves to withstand exogenous shocks.


                                     Reports by our office and the Government Accountability Office (GAO) have looked
                                     into Ex‑Im Bank’s loss reserve and risk management policies, and risk mitigation practices.
                                     The need for a comprehensive review of these policies and practices is driven largely by
                                     Ex-Im Bank’s significant asset growth, the economy, and changes in the composition of
                                     Ex-Im Bank’s product portfolio.


                                     As of the time of publication, Ex-Im Bank has implemented some, but not all, of the
                                     recommendations issued by the OIG report.2 The OIG continues to closely collaborate with
                                     Ex-Im Bank staff on this matter.


                                     CUSTOMER SERVICE. President Obama’s April 27, 2011 Executive Order 13571 highlighted
                                     the importance of federal agency customer service, instructing federal agencies (including
                                     independent agencies) to develop a customer service plan to streamline service delivery and
                                     improve customer experience. In the past, some Ex-Im Bank participants have complained


                                      2 Office of the Inspector General, Export-Import Bank of the United States; Report on Portfolio Risk and Loss
                                         Reserve Allocation Policies; OIG-INS-12-02; September 2012. See: www.exim.gov/oig/upload/Final-20Report-
                                         20Complete-20Portfolio-20Risk-20120928-1.pdf




12   Office of Inspector General | Export-Import Bank of the United States
about transactional approval times and processes. Reducing the time it takes to approve
transactions would allow U.S. exporters to develop better relationships with clients and
customers, encourage borrowers and sellers to use Ex-Im Bank, and improve the services
Ex-Im Bank provides. Ex‑Im Bank has taken several steps to address this challenge, amongst
them, Ex-Im Bank hired a VP for Customer Relations to develop customer relations
strategies and to obtain customer experience feedback from Ex-Im Bank users.


Last year, the OIG issued a report with the results of a survey of Ex-Im Bank customers and
users.3 We recommend that Ex-Im Bank routinely conduct and utilize customer surveys to
                                                                                                                      It is vital that Ex‑Im Bank
validate customer priorities and bank performance.
                                                                                                                      enhances credit underwriting
                                                                                                                      and due diligence practices
CREDIT UNDERWRITING AND DUE DILIGENCE PRACTICES. Ex-Im Bank uses a                                                    in order to identify and
decentralized under-writing process and a risk-based due diligence model. Given the lessons                           prevent fraud.
learned from incidences of fraud in the Medium-Term program4, the surge in the number
of transactions, and insufficient credit information and history from borrowers in some
regions, it is vital that Ex‑Im Bank enhances credit underwriting and due diligence practices
in order to identify and prevent fraud.


In July 2010, Ex-Im Bank’s Board of Directors issued an Individual Delegated Authority (IDA)
resolution authorizing certain individual Ex-Im Bank officers to approve loans, guarantees,
and insurance up to $10 million. Prior to this delegated authority, Ex-Im Bank approved
these transactions through a credit committee. The IDA decentralized underwriting and
decision-making authority. However, absent strong policies and procedures, decentralized
underwriting and due diligence practices may cause inconsistent criteria to be applied in
different programs.


Ex-Im Bank needs to develop effective policies, procedures, and compliance practices to
ensure the IDA works effectively. These policies should address:
   •  Uniform     credit and underwriting standards.
   •  Frequent   use of security interest and sporadic inspections in order to better mitigate
     risks in programs and regions where defaults and fraud have been high.
   •  Use   of financial statements in programs in which defaults and fraud are high; in
     particular, independently audited financial statements in regions where Ex-Im Bank
     has limited or unfavorable experience.




3 Office of the Inspector General, Export-Import Bank of the United States; Customer Experience Survey Report;
   OIG-INS-12-03; September 28, 2012. See: www.exim.gov/oig/upload/Official-Final-Customer-Survey-Report-
   120928-20Summary-1.pdf

4 Office of the Inspector General, Export-Import Bank of the United States; Medium Term Export Credit
   Program—Credit and Fraud Risk Management Business Process Improvement; OIG-AR-09-04; March 30,
   2009. See: www.exim.gov/oig/loader.cfm?csModule=security/getfile&pageid=13560.


                                                                             Office of Inspector General | Export-Import Bank of the United States   13
                  Ex-Im Bank management challenges


                                     The lack of due diligence efforts by lenders, specifically lenders with a history of defaulted
                                     transactions in certain products, is a pattern the OIG has observed. Even though Ex-Im
                                     Bank expects such efforts from participating lenders, due diligence is not required in all
                                     lender agreements.


                                     The OIG has anecdotal evidence of institutions’ loan officers expressing that the lender
                                     would not devote resources on due diligence efforts when there is a government guarantee
                                     and Ex-Im Bank does not require such efforts. Although the OIG cannot state that all lenders
                                     demonstrate this behavior, we can state that this “moral hazard” issue is prevalent in fraud
                                     cases involving multiple transactions. Ex-Im Bank should collaborate with lender‑partners
                                     and participants to encourage industry-standard due diligence on government guarantees
                                     and insurance transactions. Effective implementation of Know Your Customer practices by
                                     lenders could help minimize or prevent fraudulent activity.


                                     CORPORATE GOVERNANCE, BUSINESS PROCESSES, AND INTERNAL CONTROL
                                     POLICIES AND PRACTICES. One of the consistent observations arising out of audits,
                                     evaluations, and investigations conducted by the OIG are weaknesses in governance and
                                     internal controls for business operations. Internal policies providing clear guidance to staff
                                     and establishing clear roles and authorities are not prevalent at Ex-Im Bank. These areas
                                     need to be addressed as part of creating a better corporate governance culture.


                                     Each OIG audit, evaluation, and inspection will review applicable governance and internal
                                     controls and make recommendations to strengthen such controls.


                                     RENEWABLE ENERGY PRODUCTS AND CLEAN ENERGY EXPORT OPPORTUNITIES.
                                     Ex-Im Bank has a renewable-energy mandate of ten percent of all authorizations every year.
                                     Ex‑Im Bank has not met this mandate and recorded a significant drop in authorizations
                                     between 2011 and 2012. Nonetheless, Ex‑Im Bank has taken a proactive approach in
                                     developing renewable energy specific products such as Solar Express and in reaching out
                                     to local wind and solar manufacturers.


                                     In July 2010, GAO issued a report5 on Ex-Im Bank’s environmentally beneficial exports. It
                                     found that although some of the challenges to reach the target may be outside its control,
                                     Ex-Im Bank should develop a strategy for meeting the target that is integrated into a
                                     broader strategy for Ex‑Im Bank. It specifically recommended that Ex-Im Bank improve the
                                     tracking, reporting, and planning of its exports strategy to determine the resources required
                                     to meet its target.


                                     We continue to monitor Ex-Im Bank’s progress in this area.

                                      5 U.S. Government Accountability Office; Export-Import Bank: Reaching New Targets for Environmentally
                                         Beneficial Exports Presents Major Challenges for Bank; GAO-10-682; July 2010. See: www.gao.gov/new.items/
                                         d10682.pdf

14   Office of Inspector General | Export-Import Bank of the United States
SMALL BUSINESS PARTICIPATION. Since the 1980s, Congress and the Executive
Branch have prioritized the expansion of exports by small businesses. Since 2002, Ex‑Im
Bank’s charter has established a 20 percent small business participation requirement of
all aggregate authorizations every fiscal year. Ex-Im Bank exceeded this mandate in prior
years.6 However, in FYs 2011, 2012, and 2013, Ex‑Im Bank has not reached the 20 percent
target. Although it reached a record of $6 billion and $6.1 billion in small business export
financing in FYs 2011 and 2012, respectively, these amounts fell short of the required
20 percent in financing. In fact, Ex-Im Bank acknowledged to the GAO that it did not
anticipate reaching the 20 percent small business target in FY 2013 and FY 2014.8


GAO has reported on several aspects of Ex-Im Bank’s financing for small business exports,
including the performance standards that Ex-Im Bank established for assessing its small
business financing efforts. GAO found that Ex-Im Bank had developed performance
standards in most but not all the areas specified by Congress, ranging from providing
excellent customer service to increasing outreach. They also found that some measures for
monitoring progress against the standards lacked targets and time frames, and that Ex-Im
Bank was just beginning to compile and use the small business information it was collecting
to improve operations.7


We continue to monitor progress.




6 U.S. Government Accountability Office; Export Promotion: Export-Import Bank has Met Target for Small
   Business Financing Share; GAO-08-419T; January 17, 2008. See: www.gao.gov/products/GAO-08-419T

7 U.S. Government Accountability Office; Export-Import Bank: Performance Standards for Small Business
   Assistance are in Place but Ex-Im is in the Early Stages of Measuring Their Effectiveness; GAO-08-915;
   July 2008. See: www.gao.gov/products/GAO-08-915

8 U.S. Government Accountability Office; Export-Import Bank: Additional Analysis and Information
   Could Better Inform Congress on Exposure, Risk, and Resources; GAO-13-620; May 2013;
   www.gao.gov/assets/660/654925.pdf

                                                                              Office of Inspector General | Export-Import Bank of the United States   15
Government Accountability Office
The Inspector General (IG) Act states that each IG shall give particular regard to the
activities of the Comptroller General of the United States with a view toward avoiding
duplication and ensuring effective coordination and cooperation. The Government
Accountability Office (GAO) issued the following reports and Congressional testimony
related to Ex-Im Bank activities during the reporting period:

Export-Import Bank: More Detailed Information about Its Jobs Calculation
Methodology Could Improve Transparency
GAO-13-446, May 23, 2013; www.gao.gov/products/GAO-13-446                                                 GAO found that while the

In 2012, Congress passed the Export-Import Bank Reauthorization Act of 2012. The act                      Ex-Im Bank Business Plan

required GAO to report on the process and methodology used by Ex-Im Bank to calculate                     reported that Ex-Im Bank’s

the effects of export financing on U.S. employment. This report (1) describes the meth-                   exposure limits were
                                                                                                          appropriate, the forecasting
odology and processes Ex-Im Bank uses to calculate the effects of its financing on U.S.
                                                                                                          process used to reach this
employment and (2) examines the limitations of Ex-Im Bank’s approach and how Ex-Im
                                                                                                          conclusion has weaknesses.
Bank reports on its methodology, and provides additional related information. To address
these objectives, GAO reviewed relevant Ex-Im Bank documents, obtained and reviewed
the data Ex-Im Bank uses for its calculations, and interviewed agency officials and trade
policy researchers.


GAO found that Ex-Im Bank’s methodology to calculate the number of U.S. jobs associated
with the exports it helps finance has four key steps. First, Ex-Im Bank determines the
industry associated with each transaction it finances. Second, Ex-Im Bank calculates the
total value of exports it supports for each industry. Ex-Im Bank implements these first two
steps using its own data. Third, Ex-Im Bank multiplies the export value for each industry by
the Bureau of Labor Statistics (BLS) ratio of jobs needed to support $1 million in exports
in that industry—a figure known as the “jobs ratio”. Finally, Ex-Im Bank aggregates across
all industries to produce an overall estimate. Ex-Im Bank reports the number of jobs its
financing supports and the methodology it uses but does not describe limitations of the
methodology or fully detail its assumptions. Although the BLS data tables that Ex-Im Bank
relies on are based on a commonly used methodology, this methodology has limitations.
For example, the employment data are a count of jobs that treats full-time, part-time, and
seasonal jobs equally. In addition, the data assume average industry relationships, but Ex-Im
Bank’s clients could be different from the typical firm in the same industry. Further, the
underlying approach cannot answer the question of what would have happened without
Ex-Im Bank financing. Ex-Im Bank does not report these limitations or fully detail the
assumptions related to its data or methodology. GAO’s Standards for Internal Controls in
the Federal Government states that, in addition to internal communication, management
should ensure adequate communication with external stakeholders, which could include
Congress and the public. Because of a lack of reporting on the assumptions and limitations




                                                                 Office of Inspector General | Export-Import Bank of the United States   17
                  Government Accountability Office


                                     of its methodology and data, Congressional and public stakeholders may not fully
                                     understand what the jobs number that Ex-Im Bank reports represents and the extent to
                                     which Ex-Im Bank’s financing may have affected U.S. employment.


                                     To ensure better understanding of its jobs calculation methodology, GAO recommended
                                     that Ex‑Im Bank improve reporting on the assumptions and limitations in the methodology
                                     and data used to calculate the number of jobs Ex-Im Bank supports through its financing.
                                     Ex-Im Bank agreed with the recommendation and stated that it would begin reporting
                                     more detailed information in its fiscal year 2013 annual report.

                                     Export-Import Bank: Additional Analysis and Information Could Better Inform
                                     Congress on Exposure, Risk, and Resources
                                     GAO-13-620, May 30, 2013; www.gao.gov/products/GAO-13-620

                                     The Export-Import Bank Reauthorization Act of 2012 reauthorized Ex-Im Bank through
                                     fiscal year 2014 and, as a condition of raising Ex-Im Bank’s exposure limit in 2013, required
                                     Ex-Im Bank to prepare a report with a business plan and analyses of key operational
                                     elements. The act also directed GAO to analyze the Business Plan. This report discusses the
                                     extent to which Ex-Im Bank’s Business Plan and analyses (1) justify bank exposure limits; (2)
                                     evaluate the risk of loss associated with the increased exposure limit, changing composition
                                     of exposure, and compliance with congressional mandates; and (3) analyze the adequacy of
                                     Ex-Im Bank resources to manage authorizations and comply with congressional mandates.
                                     GAO reviewed Ex-Im Bank’s Business Plan, analyses, and other reports, and interviewed
                                     Ex-Im Bank officials.


                                     GAO found that while the Ex-Im Bank Business Plan reported that Ex-Im Bank’s
                                     exposure limits were appropriate, the forecasting process used to reach this conclusion
                                     has weaknesses. Although Ex-Im Bank’s forecast model is sensitive to key assumptions,
                                     GAO found that Ex-Im Bank did not reassess these assumptions to reflect changing
                                     conditions or conduct sensitivity analyses to assess and report the range of potential
                                     outcomes. GAO used historical data in lieu of these assumptions and found that Ex-Im
                                     Bank’s forecast of exposure could be higher than the exposure limit set by Congress for
                                     2014. GAO’s cost guidance calls for agencies’ assumptions and forecasts to be supported
                                     by historical data and experience, and a sensitivity analysis, which can assess the effect of
                                     changes in assumptions. Because Ex-Im Bank has not taken these steps the reliability of
                                     its forecasts is diminished. This is of particular concern because Ex-Im Bank projects that
                                     its outstanding financing in the future will be closer to its exposure limit than it has been
                                     historically. Consequently, any forecast errors could result in the Bank’s having to take
                                     actions, such as delaying financing for creditworthy projects, to avoid exceeding its limit.




18   Office of Inspector General | Export-Import Bank of the United States
The Business Plan provided limited analysis of Ex-Im Bank’s risk of loss. First, Ex-Im Bank
did not provide some forecast data because of pending OMB approval of key analyses.
Second, Ex-Im Bank included only limited analysis to support its conclusions that changes in
its portfolio—including subportfolios of transactions supporting congressional mandates for
small business, sub-Saharan Africa, and renewable energy—would not affect its risk of loss.
In addition, Ex-Im Bank has not routinely analyzed or reported the risk rating and default
rate of subportfolios that respond to these mandates, although their performance may differ
from the overall portfolio. OMB and banking regulator guidance call for entities, including
federal agencies, to be able to provide comprehensive information by subportfolio, product,
                                                                                                           Communicating the effect
and other financial performance metrics. By not routinely analyzing and reporting financial
                                                                                                           of percentage-based targets
performance for mandated transactions, Ex-Im Bank decreases its ability to evaluate such
                                                                                                           on Ex-Im Bank’s resources
performance at the subportfolio level and inform Congress of related risks.                                and ability to achieve its goals
                                                                                                           to external stakeholders is
The Business Plan provided limited analysis of the adequacy of Ex-Im Bank’s resources                      consistent with federal internal
and ability to meet congressional mandates. From 2008 through 2012, Ex-Im Bank’s                           control standards.
administrative resources remained relatively flat as its portfolio grew. Ex-Im Bank does not
expect to meet its small business or renewable energy mandate targets in 2013 or 2014.
These mandate targets are fixed to a percentage of the dollar value of Ex-Im Bank’s total
authorizations. Although Ex-Im Bank has dedicated resources to support these mandates,
as Ex-Im Bank authorizations have grown, the growth in mandate targets has outpaced Ex-
Im Bank’s increasing support. Ex-Im Bank projects that the targets will continue to outpace
its growth in support through 2014. Mandate transactions also are resource-intensive and
Ex-Im Bank’s ability to expand its renewable energy portfolio may be constrained by the
size of the overall market. Communicating the effect of percentage-based targets on Ex-Im
Bank’s resources and ability to achieve its goals to external stakeholders, such as Congress,
is consistent with federal internal control standards.


Ex-Im Bank should (1) adjust its forecasting model based on previous experience, (2)
assess and report the sensitivity of the exposure forecast model to key assumptions and
estimates, (3) routinely report the financial performance of subportfolios supporting
congressional mandates, and (4) provide Congress with additional information on the
resources associated with meeting mandated targets. Ex-Im Bank concurred with GAO’s
recommendations.

Export-Import Bank: Recent Growth Underscores Need for Improved Risk
Management and Reporting—Congressional Testimony
GAO-13-703T, Jun 13, 2013; www.gao.gov/products/GAO-13-703T

This testimony draws on two reports GAO issued in March and May of this year in response
to requirements in the Export-Import Bank Reauthorization Act of 2012. The act required
GAO to assess aspects of Ex-Im Bank’s risk management and 2012 Business Plan in the




                                                                  Office of Inspector General | Export-Import Bank of the United States       19
                  Government Accountability Office


                                     context of the agency’s growth. The act also increased the statutory ceiling on the
                                     agency’s total exposure (exposure limit). This testimony discusses Ex-Im Bank’s efforts to
                                     (1) forecast exposure levels, (2) manage financial risks and estimate losses, and (3) manage
                                     its workload.


                                     Ex-Im Bank’s Business Plan concluded that the exposure limits in the Reauthorization Act
                                     were appropriate, but GAO’s May 2013 report found weaknesses in the methodology
                                     Ex-Im Bank used to justify that conclusion. The Reauthorization Act increased the Ex-Im
                                     Bank exposure limit to $120 billion in 2012, with provisions for additional increases to $130
                                     billion in 2013 and $140 billion in 2014. Ex-Im Bank forecast that its year-end exposure
                                     would be $120.2 billion in 2013 and $134.9 billion in 2014, below the congressionally
                                     determined limits. However, the buffer between the exposure limit and Ex-Im Bank’s
                                     exposure forecast for 2013 and 2014 is small in comparison with recent historical experience.


                                     GAO’s March 2013 report found that Ex-Im Bank has been developing a more comprehensive
                                     risk‑management framework, but could take additional steps to improve this process. For
                                     example, Ex-Im Bank has started addressing recommendations by its Inspector General
                                     about portfolio stress testing, thresholds for managing portfolio concentrations, and risk
                                     governance. GAO’s review indicated that the IG’s recommendations represent promising
                                     techniques that merit continued attention. In addition, GAO concluded that reporting stress
                                     testing scenarios and their results would aid congressional oversight and be consistent with
                                     internal control standards for effective external communication. However, Ex-Im Bank could
                                     further improve its risk management, including its risk modeling. Ex-Im Bank calculates
                                     credit subsidy costs and loss reserves and allowances with a loss estimation model that
                                     uses historical data and takes credit, political, and other risks into account. Consistent
                                     with industry practices, Ex-Im Bank added factors to the model in 2012 to adjust for
                                     circumstances that may cause estimated credit losses to differ from historical experience.


                                     Ex-Im Bank also could improve its analysis of the financial performance of its portfolio.
                                     As of December 2012, Ex-Im Bank reported an overall default rate of less than 1 percent.
                                     Ex-Im Bank’s default rate declined steadily from about 1.6 percent as of September 30,
                                     2006, to just under 0.3 percent as of September 30, 2012, before edging up slightly by the
                                     end of the calendar year. However, this downward trend should be viewed with caution
                                     because Ex-Im Bank’s portfolio contains a large volume of recent transactions that have not
                                     reached their peak default periods. Moreover, Ex-Im Bank has not maintained data needed
                                     to compare the performance of newer books of business with more seasoned books at
                                     comparable points in time, a type of analysis recommended by federal banking regulators.




20   Office of Inspector General | Export-Import Bank of the United States
Office of Audits
                  Office of Audits


                                     Summary of Audit Activities
                                     The Office of Audits (OA) conducts and oversees independent and objective audits relating
                                     to Ex‑Im Bank programs to improve Ex-Im Bank operations. All OIG audits are performed
                                     in accordance with generally accepted government auditing standards promulgated by
                                     the Comptroller General of the United States. Furthermore, OA refers irregularities
                                     and other suspicious conduct detected during audits to the Office of Investigations for
                                     investigative consideration.


                                     OA completed one audit during the six months ended September 30, 2013:
                                         •  Audit   of Export-Import Bank’s Management of Direct Loans and Related Challenges


                                     At the end of the reporting period, OA had four audits in progress:
                                         •  Audit   of Export-Import Bank’s Implementation of Content Policy
                                         •  Audit   of Export-Import Bank’s Controls Over Sponsored Travel
                                         •  FY   2013 Information Security Program and Practices Audit
                                         •  Audit   of Export-Import Bank’s Financial Statements for FY 2013


                                     Reports Issued
                                     Ex-Im Bank’s Management of Direct Loans and Related Challenges
                                     (OIG-AR-13-05, September 26, 2013)
                                     http://author.exim.gov/oig/upload/OIG-Final-Report-Audit-of-Ex-Im-Bank-s-Management-of-Direct-Loans-and-Related-
                                     Challenges-09-26-13-2.pdf

                                     Ex-Im Bank provides fixed-rate loans to foreign buyers of U.S. goods and services. Such
                                     direct loans generally exceed $10 million and provide foreign buyers financing at the most
                                     favorable terms allowed. In light of the recent international financial crisis, Ex-Im Bank’s
                                     direct loan authorizations increased from $0 in FY 2007 to $11.8 billion in FY 2012. During
                                     the same period, Ex -Im Bank’s exposure to loans tripled from 9 percent to 27 percent
                                     of the total portfolio. As a result, we reviewed Ex-Im Bank’s management of direct loan
                                     transactions, including its compliance with Federal and agency credit program policies.
                                     Our audit included a sample of 6 of the 40 direct loans authorized and managed by the
                                     Structured & Project Finance Division between FYs 2010 and 2012. These sampled loans
                                     were underwritten by approximately half of the division’s loan officers and totaled $7.3
                                     billion (or 33 percent) of the total $22.4 billion in loans authorized during the period.


                                     Ex-Im Bank updated its policies to reflect new statutory requirements and is looking for
                                     ways to streamline its business processes. Ex-Im Bank is also establishing an Enterprise
                                     Risk Committee and developing a plan to address new Office of Management and Budget
                                     (OMB) requirements. These actions represent good faith efforts to improve internal controls
                                     and overall credit program management. However, as a result of inadequate recordkeeping,
                                     overreliance on institutional knowledge, and a lack of mechanisms necessary to ensure




24   Office of Inspector General | Export-Import Bank of the United States
compliance with Federal and agency credit program policies, we found that Ex-Im Bank
loan officers and other personnel did not always document sufficient evidence for
borrower statements regarding the need for Ex-Im Bank financing, or perform or document
performance of other required tasks. Those tasks included (1) completing checklists
intended to ensure borrower eligibility, completeness of loan applications, and collection
of all required commitment documents; and (2) documenting Character, Reputational, and
Transaction Integrity (CRTI) due diligence reviews prior to loan approval.


Also, although Ex-Im Bank’s policies are largely consistent with many fundamentals of Federal
credit program policies, Ex-Im Bank has not formally adopted key OMB and U.S. Department
of Treasury policy documents. As a result, Ex-Im Bank’s policies and procedures do not
expressly address Federal requirements, including new requirements in OMB Circular A-129,
“Policies for Federal Credit Programs and Non-Tax Receivables”, revised in January 2013.


Finally, Ex-Im Bank faces several challenges that, although not unique to direct loans, may
impact Ex-Im Bank’s management of the direct loan portfolio. These challenges include:
  •  fragmented   recordkeeping practices;
  •  complex   business processes; and
  •  growing   demand for Ex-Im Bank support.


Separately managing each challenge is difficult enough, but because they are inherently
related they present additional complications and require management’s attention.


To improve Ex-Im Bank’s management of direct loans and related challenges, we
recommended Ex-Im Bank (1) maintain additional documentation to support the need
for Ex-Im Bank financing; (2) adopt key OMB and U.S. Department of Treasury policies by
revising agency policies and procedures; (3) develop mechanisms to ensure compliance with
Federal and agency credit program policies; and (4) evaluate recordkeeping practices and
implement a plan to timely address deficiencies found. Management concurred with the
recommendations, which will be closed upon completion and verification of corrective action.



Ongoing Audits
                                                                                                          Domestic content means the
Audit of Export-Import Bank’s Implementation of Content Policy
                                                                                                          goods and services produced in
The mission of Ex-Im Bank is to assist in financing the export of U.S. goods and services to
                                                                                                          the U. S. and included in Ex‑Im
international markets. Ex-Im Bank enables U.S. companies to turn export opportunities into
                                                                                                          Bank-supported transactions.
real sales that help to maintain and create U.S. jobs and contribute to a stronger national
                                                                                                          It correlates to the creation
economy. Ex‑Im Bank provides a variety of financing mechanisms, including working capital
                                                                                                          or sustainment of U.S. jobs.
guarantees, export-credit insurance, and loans to help foreign buyers purchase U.S. goods




                                                                 Office of Inspector General | Export-Import Bank of the United States      25
                         Office of Audits


                                          and services. The amount of goods and services produced in the U.S. and included in Ex-Im
                                          Bank-supported transactions—referred to as domestic content—correlates to the creation
                                          or sustainment of U.S. jobs involved in the production of those goods and services. In FY
                                          2012, Ex-Im Bank approved $35.8 billion in total authorizations supporting an estimated
                                          $50 billion in U.S. export sales and, according to Ex-Im Bank, approximately 255,000
                                          American jobs.


                                          The overall objective of the audit is to evaluate Ex-Im Bank’s implementation of its content
                                          policy and assess Ex-Im Bank’s procedures for determining the U.S. content and eligible
                                          foreign content included in each transaction supported by Ex-Im Bank. Audit work com-
                                          menced in November 2012. The OIG anticipates issuing an audit report in November 2013.


                                          Audit of Export-Import Bank’s Controls Over Sponsored Travel
                                          Under certain circumstances, agencies and their employees may accept gifts of official
                                          travel and related expenses from non-Federal sources (referred to as sponsored travel).
                                          Specifically, 31 U.S.C. 1353 and its implementing regulation, the Federal Travel Regulation,
                                          permit executive branch agencies to accept payments of “travel, subsistence, and related
     In certain circumstances,
                                          expenses” from non-Federal sources for employee attendance at conferences, seminars,
     Export-Import Bank staff may
                                          and speaking engagements, but not events required to carry out agencies’ statutory
     accept gifts of official travel
                                          functions. In addition to this government-wide authority, the Export-Import Bank Act of
     and related expenses from
     non‑Federal sources.
                                          1945, as amended, enables Ex-Im Bank to accept reimbursement for travel and subsistence
                                          expenses incurred as a result of employee attendance at meetings or similar events that
                                          are directly related to the mission of Ex-Im Bank. The authority to accept transactional
                                          travel was added to Ex-Im Bank’s organic statute by Public Law 101-240 so that Ex‑Im
                                          Bank could “be more aggressive in promoting its Export programs” given its “severely
                                          limited” annual restrictions on its overall administrative expenses.8 However, Ex-Im Bank’s
                                          authority to accept sponsored conference and transactional travel is not unlimited and
                                          must comply with ethics and conflict-of-interest regulations. Specifically, in approving and
                                          accepting sponsored travel, Ex-Im Bank management must prevent abuse and ensure that
                                          Ex-Im Bank’s interest in employee attendance at sponsored events and meetings outweighs
                                          concern that acceptance of gifts of official travel from non-Federal sources may cause a
                                          reasonable person to question the integrity of Ex-Im Bank’s programs and operations. In
                                          addition, when sponsors agree to reimburse Ex-Im Bank for certain travel expenses, Ex-Im
                                          Bank must accurately and timely bill sponsors and collect reimbursements to ensure that
                                          limited administrative funds are not unnecessarily or inefficiently expended.




                                           8 House Report that accompanied Public Law 101-240 [H.R. Rep. No. 101-271, at 23 (1989)].




26        Office of Inspector General | Export-Import Bank of the United States
The overall objective of the audit is to evaluate Ex-Im Bank’s approval, acceptance, and
collection of payments from non-Federal sources for travel and related expenses. We will
also determine whether Ex-Im Bank has complied with Federal and agency regulations
pertaining to sponsored travel, and follow-up on corrective actions implemented as a result
of our previous audit report (OIG-AR-10-04), dated June 4, 2010. (http://author.exim.gov/
oig/loader.cfm?csModule=security/getfile&pageid=13592) Audit work commenced in
April 2013 but was temporarily suspended in June 2013 due to staffing constraints. Fieldwork
resumed in September 2013 and the OIG anticipates issuing an audit report in March 2014.


Audit of Export-Import Bank’s Compliance with the Federal Information Security
Management Act for FY 2013
The Federal Information Security Management Act (FISMA) requires the OIG, or its
designee, to conduct annual evaluations of Ex-Im Bank’s information security program and
report the results to OMB. The OIG contracted with an Independent Public Accountant
(IPA) to conduct the audit. The audit will include an assessment of Ex-Im Bank’s efforts to
address previously reported weaknesses.


Audit work commenced in June 2013. The OIG anticipates the IPA will respond to OMB
reporting requirements in November 2013 and issue an audit report in December 2013.


Audit of Export-Import Bank’s Financial Statements for FY 2013
The Chief Financial Officers Act of 1990 requires the OIG, or an independent external audi-
tor chosen by the OIG, to audit Ex-Im Bank’s financial statements annually. An IPA working
under OIG oversight is performing the audit of Ex-Im Bank’s FY 2013 financial statements.
The IPA is focusing on following areas of emphasis:
  •  Ex-Im   Bank’s processes for allowing for losses and subsidy re-estimate;
  •  Existing   and new fraud cases in FY 2013 (if any); and
  •  Compliance     with legislation reauthorizing Ex-Im Bank.


The audit will also include an assessment of Ex-Im Bank’s efforts to address previously
reported weaknesses.


Audit work commenced in July 2013. The OIG anticipates the IPA will issue its opinion on
the FY 2013 financial statements in November.




                                                                  Office of Inspector General | Export-Import Bank of the United States   27
Office of Inspections
and Evaluations
                        Office of Inspections and Evaluations


                                          The Office of Inspections and Evaluations (OIE) conducts independent inspections and
                                          policy evaluations to assess the efficiency and effectiveness of Ex-Im Bank’s programs,
                                          operations, and transactions. All OIE assignments are performed in accordance with Council
                                          of Inspectors General on Integrity and Efficiency (CIGIE) guidelines and standards including
                                          the 2010 “Quality Standards for Inspections and Evaluations”. OIE works in tandem with
                                          the Office of Audit and the Office of Investigations whenever appropriate. Moreover, OIE
                                          refers irregularities and other suspicious conduct detected during its reviews to the Office of
                                          Investigations for investigative consideration.


                                          During the second half of FY 2013, OIE completed its inspection report of Minera y
                                          Metalurica del Boleo S.A. and began two additional transaction inspections: Punj Lloyd
                                          Solar Power, Ltd and the Liquefied Natural Gas Project in Papua New Guinea. In addition,
                                          OIE continued working on its evaluation of Ex-Im Bank’s Economic Impact Procedures.


                                          A brief synopsis of these assignments appears below.



                                          Reports Issued
                                          Inspection Report on Minera y Metalurica del Boleo S.A. (Boleo)
                                          (OIG-INS-13-01, September 30, 2013)
                                          http://author.exim.gov/oig/upload/REDACTED-Report-on-Minera-y-Metalurica-del-Boleo-SA-Report-Final-OIG-
                                          INS-13-01-130930.pdf

                                          Our inspection of the Boleo transaction seeks to develop a coherent explanation of events
     The Boleo project involves the
                                          and causal factors that led to the cost overruns of the project, to examine the possibility of
     development of an underground
                                          corporate malfeasance by any of the involved parties, and—with the benefit of hindsight—
     copper-cobalt-zinc mine located
     near the town of Santa Rosalia
                                          to identify lessons learned. Specifically, what could Ex-Im Bank have done differently from
     in Baja California Sur, Mexico.      a due diligence, credit review, and monitoring perspective to mitigate the risk of loss. The
                                          report outlines several key findings that may indicate a systemic vulnerability in certain
                                          Ex-Im Bank policies and procedures and provides recommendations to help address these risks.


                                          The Boleo project involves the development of an underground copper-cobalt-zinc mine
                                          located near the town of Santa Rosalia in Baja California Sur, Mexico. The mine is owned
                                          and operated by a consortium of Korean companies and Baja Mining Corporation, a listed
                                          Canadian company. The total project cost for developing the mine was initially estimated
                                          at $1.2 billion, financed by a combination of sponsor equity of $490 million and debt
                                          financing of circa $710 million. Of the latter amount, Ex-Im Bank provided approximately
                                          $420 million or 59 percent of the total financing. With the benefit of hindsight, it is apparent
                                          that certain identified risks were not sufficiently vetted in the initial due diligence process,
                                          nor mitigated in the structuring phase, nor adequately managed by the responsible parties.
                                          In the aggregate, these factors posed greater risks to Ex-Im Bank, facilitated substantial cost
                                          overruns, and contributed to the project’s default within six months of financial closing.



30        Office of Inspector General | Export-Import Bank of the United States
In November 2012, Ex-Im Bank successfully restructured its $419.6 million direct loan
facility in, what appears to be, a no loss situation for Ex-Im Bank. The original Ex-Im Bank
project financing was terminated and replaced with a new $419.6 million facility to a
state-owned Korean entity and member of the original consortium of sponsors. The project
facilities remain in default, however, as the remaining lenders continue to re-negotiate their
Standstill Agreement with the Borrower.


Our inspection revealed evidence of inappropriate conduct by several parties including
the Borrower’s failure to make timely disclosure of significant cost overruns, inaccurate
representations, allegations of fraud related to one of the project’s local vendors,
management impropriety, and an over-arching lack of governance.


In addition, we observed that Ex-Im Bank’s current policies and procedures related to the
reimbursement of local costs may not be sufficiently developed to guard against waste,
fraud, and abuse by local suppliers. Moreover, Ex-Im Bank lacks the infrastructure and
resources to effectively process the high volume of local cost disbursements. Finally, we
noted that Ex‑Im Bank’s Character, Reputational, and Transaction Integrity (CRTI) or Know
Your Customer procedures for local cost vendors would benefit from a broader review of
local public sources and more frequent application. The enhanced procedures would alert
Ex-Im Bank to possible risks of fraud and corruption in the host country on an ongoing basis.


In light of these findings, we made seven recommendations to enhance the level of
due diligence, credit analysis, and monitoring activities and to address potential systemic
vulnerabilities. Management concurred with the recommendations, which will be closed
upon completion and verification of corrective action.
  •  Review   internal credit analysis and approval procedures with a view to improving its
    transaction risk assessment and budget cost levels (BCL) classification and to ensure
    the independence and objectivity of the credit evaluation process. To this end, Ex-Im
    Bank should benchmark its current credit review and approval procedures against
    current best practices and U.S. financial regulatory guidance; evaluate the BCL rating
    process for structured financings to ensure a consistent approach across industries,
    countries, and financing structures as well as rating agency criteria for comparable
    transactions; and implement a more systematic approach to pre-Board briefings
    including a standardized briefing package that includes a full risk assessment. Finally,
    Ex-Im Bank should involve representatives from the Asset Management Division (AMD)
    at an earlier stage of the credit approval process to benefit from AMD’s experience
    with similar transactions in its portfolio and to effect a smooth transition from pre- to
    post-operative status.




                                                                   Office of Inspector General | Export-Import Bank of the United States   31
                  Office of Inspections and Evaluations


                                         •  Implement     a risk-based approach to monitoring that specifically identifies and
                                           addresses the potential vulnerabilities of the transaction. With respect to Boleo,
                                           this approach would suggest a more pro-active focus on the performance of the
                                           engineering, procurement, and construction management (EPCM) contractor, budget
                                           revisions such as project change orders, and more “boots on the ground” inspections
                                           of the project.
                                         •  Strengthen    its Know Your Customer and local due diligence procedures by expanding
                                           its review of local public sources and conducting the analysis periodically throughout
                                           the life of the transaction. The enhanced procedures would alert Ex-Im Bank to possible
                                           risks of fraud and corruption in the host country on an ongoing basis.
                                         •  Further   develop its fraud prevention practices for local cost financings, with a view to
                                           establishing a more robust and proactive approach. To this end, Ex-Im Bank should
                                           review and benchmark current practices with the best practices currently employed by
                                           other multilateral agencies and U.S. federal agencies.
                                         •  Establish   a streamlined, automated electronic invoice submittal system with a client
                                           web portal that seamlessly provides input for loan disbursement and data tracking
                                           control, review, and processing purposes covering both local costs and U.S. exports.
                                         •  Increase    its staff in both the pre- and post-operative transaction monitoring teams, and
                                           related internal resources to better equip Ex-Im Bank to handle a growing volume of
                                           complex transactions and to implement a more proactive approach to site visits, loan
                                           structuring, and monitoring.
                                         •  Conduct     a post–mortem review of the structural issues encountered in the Boleo
                                           transaction and formulate recommendations. All parties involved in the transaction
                                           should participate in the review.



                                     Ongoing Inspection Assignments
                                     OIE identified several inspection candidates for FY 2013 and is currently reviewing two
                                     Ex‑Im Bank structured financings. OIE expects to release the results of its inspections in FY
                                     2014. A brief description of each financing appears below.


                                     Punj Lloyd Solar Power, Ltd. (Punj Lloyd)
                                     The Punj Lloyd solar project involves the development of a five megawatt solar photovoltaic
                                     (PV) power plant located on a 62.5-acre site near the village of Bap, approximately 90 miles
                                     from the city of Jodhpur in the state of Rajasthan, India. The project uses PV solar modules
                                     manufactured and exported by Abound Solar, Inc., formerly of Loveland, Colorado.


                                     Borrower Punj Lloyd is a wholly-owned subsidiary of Punj Lloyd Infrastructure, Ltd.,
                                     an infrastructure development company incorporated in 2007 and wholly-owned subsidiary




32   Office of Inspector General | Export-Import Bank of the United States
of Punj Lloyd Limited, an international engineering and construction firm headquartered in
Gurgaon, India. The total project cost for developing the solar power plant is estimated at
$16.6 million, financed by sponsor equity of approximately $7.5 million and debt financing
of $9.1 million.


OIE’s inspection seeks to determine the level of due diligence, risk assessment, and
portfolio monitoring performed by Ex-Im Bank in this transaction given the difficult nature
of the industry, allegations against the exporter, the implementation of the fast track credit
process, and how the identified risks were mitigated. Further, OIE will make appropriate
recommendations in the interest of supporting Ex-Im Bank’s ongoing, proactive initiatives
to improve efficiency and banking practices.


Papua New Guinea—Liquefied Natural Gas Project (PNG-LNG)
PNG LNG is a vertically integrated liquefied natural gas project in Papua New Guinea,
                                                                                                                     The PNG-LNG project involves
consisting of gas fields in the highlands, an on-shore and off-shore pipeline of over
                                                                                                                     Exxon Mobil, companies in
400 miles, a gas liquefaction plant on the coast, marine export facilities, and in-country
                                                                                                                     Papua New Guinea, Australia,
infrastructure. Construction started in 2010 and is scheduled for completion in 2015. The                            Japan—and Ex-Im Bank
current, estimated construction cost is $19.4 billion. Ex-Im Bank has commitments totaling
$3 billion, including $579 million for local costs.


The project is an unincorporated joint venture among subsidiaries of Exxon Mobil
Corporation, Oil Search Limited (a Papua New Guinea independent oil company), Santos
Limited (an Australia company), Japan Papua New Guinea Petroleum Company (a subsidiary
of Nippon Oil and other Japanese Oil companies) and certain companies wholly owned
by the independent state of Papua New Guinea. OIE’s inspection seeks to determine the
level of due diligence, policy compliance, risk assessment, risk mitigation, and portfolio
monitoring performed by Ex-Im Bank, given the transaction’s size, complexity, and 17.5-
year term, which is on a non-recourse basis once the project is in commercial operation.
OIE will make appropriate recommendations in support of Ex‑Im Bank’s ongoing, proactive
initiatives to improve efficiency, integrity, and banking practices.



Other Ongoing Assignments
Evaluation of Ex-Im Bank economic impact procedures
Ex-Im Bank’s economic impact procedures are intended to provide a methodological
framework to assure that that Ex-Im Bank’s projects do not have an adverse impact on
U.S. industry. First introduced to Ex-Im Bank’s Charter in 1968, the procedures9 have been

9 Office of the Inspector General, Export-Import Bank of the United States; Evaluation Report Relating to
   Economic Impact Procedures; OIG-EV-10-03; September 17, 2010. See: http://author.exim.gov/oig/loader.
   cfm?csModule=security/getfile&pageid=13549

 U.S. Government Accountability Office; Export-Import Bank: Improvements Needed in Assessment of
 Economic Impact; GAO-07-1071; September 2007. See: www.gao.gov/products/GAO-07-1071.

                                                                            Office of Inspector General | Export-Import Bank of the United States   33
                  Office of Inspections and Evaluations


                                     the subject of Congressional scrutiny and public interest. In prior years, both the OIG and
                                     the GAO have identified opportunities for improvement in Ex-Im Bank’s economic impact
                                     procedures. The most recent version of the procedures was approved by Ex-Im Bank’s
                                     Board of Directors on November 19, 2012 and took effect April 1, 2013. This evaluation
                                     complements OIG’s prior report by analyzing the new procedures in the context of OIG’s
                                     prior findings and recommendations. OIE expects to publish the results of its evaluation
                                     during the next fiscal period.


                                     Other activities
                                     The OIE participates in the CIGIE Inspection and Evaluation Committee, which leads the
                                     development of protocols for reviewing management issues that cut across departments
                                     and agencies, promotes the use of advanced program-evaluation techniques, and fosters
                                     awareness of evaluation and inspection practices in OIGs. Additionally, during this period,
                                     OIE participated in several discussions with representatives from the GAO to discuss Ex-Im
                                     Bank’s loss reserve and risk management practices, business strategy, and due diligence
                                     procedures.


                                     Finally, we are pleased to announce the hire of Ms. Lilith Sanchez and Mr. Don Reid as
                                     Senior Inspectors. Both join Ex-Im Bank OIG with more than twenty years of structured
                                     finance lending experience with several financial institutions.




34   Office of Inspector General | Export-Import Bank of the United States
Office of Investigations
                  Office of Investigations


                                     Summary of accomplishments
                                     The Office of Investigations (OI) conducts and coordinates investigations relating to alleged
                                     or suspected violations of laws, rules, or regulations occurring in Ex-Im Bank programs and
                                     operations. The subjects of OI investigations can be program participants, contractors,
                                     Ex‑Im Bank management, or employees. Special Agents in OI are Federal criminal
                                     investigators (job series 1811). Investigations that uncover violations of Federal law, rules,
                                     or regulations may result in criminal or civil prosecution, and administrative sanctions.


                                     During this reporting period, OI achieved several milestones and accomplishments towards
                                     meeting mission objectives of investigating and preventing trade finance and export credit
                                     insurance fraud impacting Ex-Im Bank. These actions include:
                                         •  Obtained   13 criminal judgments resulting in 130 months imprisonment, 396 months’
                                           probation, and $54,370,505 in criminal restitution, forfeiture, and fines.
                                         •  Obtained   three administrative actions stemming from referrals of active investigative
                                           information resulting in $110,000 in payments to Ex-Im Bank and a cost savings of
                                           $750,000 by protecting U.S. taxpayer funds at risk.
                                         •  Obtained   four plea agreements entered in court by subjects pursuant to ongoing
                                           investigative matters.
                                         •  Provided   37 reports of investigative information to Ex-Im Bank Office of General
                                           Counsel concerning potential funds at risk to support enhanced due diligence efforts
                                           in approving, processing, and monitoring export credit loan guarantees and
                                           insurance policies.
                                         •  Referred   one investigative matter to the U.S. Department of Justice for
                                           prosecutive decision.
                                         •  Successfully   closed nine investigations after concluding all remaining actions and
                                           prosecutive results in those cases and, additionally, closed further investigative review
                                           of approximately $29.5 million in suspected claims that had been under investigation.


                                     Summary of investigations
                                     OI evaluates all reports of possible fraud or illegality affecting Ex-Im Bank programs
                                     and activities. Such reports are received from a variety of sources including Ex-Im Bank
                                     employees, Ex-Im Bank Office of General Counsel, participants in Ex-Im Bank transactions,
                                     other government agencies, and the Ex-Im Bank OIG Hotline. Evaluations that identify
                                     reasonable indications of possible fraud or illegality result in an investigation. These
                                     investigations are summarized in the table on page 39.




                                      10 A
                                          dministrative actions are responses by Ex-Im Bank to stop transactions, cancel policies, or protect funds
                                         at risk based upon investigative findings.




38   Office of Inspector General | Export-Import Bank of the United States
                        Activity                       Investigations       Claims*        Claim amounts
       Open as of April 1, 2013                               31              374           $250,549,264
       Opened during period                                   15               21           $24,848,900
       Closed during period                                   (9)             (34)          ($29,468,975)
       Open as of September 30, 2013                          37              361           $245,929,189

     * The number and amount of claims paid subject to investigation. Not all investigations involve claims
        paid by Ex-Im Bank. Not all claims opened or closed in the period are related to cases opened or closed
        in the period, but may be related to other active investigations. The referral of a claim to the OIG
        for investigation does not establish the existence of fraud and not all claims included in a case under
        investigation are necessarily fraudulent until proven so by evidence developed in the investigation.
        The number of claims may vary during the course of an investigation as facts and findings develop.




Summary of investigative results
OI obtained the following actions during this reporting period.


                    Description                        OIG            Joint activities*              Total
       Matters Referred to the                           1                     0                       1
       Department of Justice
       Arrest Warrants Obtained                          0                     1                       1
       Arrests Made                                      0                     1                       1
       Criminal Indictments,                             3                     1                       4
       Informations, Complaints
       Pleas Entered                                     2                     2                       4
       Criminal Judgments                                3                    10                      13
       Prison Time (months)                             36                    94                     130
       Probation (months)                               72                    324                    396
       Pre-Trial Diversion (months)                      0                    18                      18
       Court Ordered Fines,                       $2,034,500            $52,336,005            $54,370,505
       Restitution, and Forfeiture
       Administrative Actions**                          1                     2                       3
       Administrative Cost Savings                  $750,000              $110,000               $860,000
       and Repayments

     * Joint investigations with other law enforcement agencies.

     ** Administrative actions are responses by Ex-Im Bank to stop transactions, cancel policies, or protect
         funds at risk based upon investigative findings.




Investigations
Ex-Im Bank program integrity
OI conducts investigations into violations of Federal laws affecting the integrity of Ex-Im
Bank’s programs and the public’s trust and reliance on those programs and representations.




                                                                              Office of Inspector General | Export-Import Bank of the United States   39
                  Office of Investigations


                                     These investigations involve allegations such as the misuse of official government seals
                                     and letterhead; forgeries of bank officials’ signatures; false Letters of Interest; or other
                                     misrepresentations or misconduct in which criminals falsely purport to victims that they
                                     have the authority, approval, or support of Ex-Im Bank.


                                     Successful investigative efforts within this area during the period include:
                                     Former Bank Senior Vice President Sentenced for Conspiracy Charges
                                     On May 17, 2013, James Bender, of Sharon, Massachusetts, was found guilty of conspiracy
                                     to commit wire fraud after a four-day jury trial in the U.S. District Court for the District of
                                     New Hampshire. On September 23, 2013, Bender was sentenced to 24 months in prison.
                                     Bender was also fined $7,500, ordered to pay restitution in the amount of $195,457.67, and
                                     sentenced to serve 36-months of supervised release.


                                     Bender, a former Senior Vice President of Trade Finance for Sovereign Bank, conspired
                                     with Paul Wilson, the former Manager of International Trade Finance for Goss International
                                     Americas Corporation, to defraud several Latin American customers of Goss. Goss
                                     manufactures commercial printing presses. One component of Wilson’s job was to facilitate
                                     international sales by arranging financing for foreign purchasers of Goss’s products and
                                     working with Ex-Im Bank to obtain credit insurance for loans extended to Goss’s foreign
                                     customers. Bender arranged for Sovereign Bank to purchase most of the loans Goss
                                     extended to its foreign customers.


                                     Bender and Wilson formed two shell companies called Zephyr Capital LLC and Zephyr
                                     Financial LLC, through which they defrauded two Brazilian and two Mexican businesses
                                     that purchased presses from Goss. Bender and Wilson used the shell companies to send
                                     fraudulent invoices to these businesses charging them for loan underwriting services
                                     that were either never rendered or that Wilson performed as part of his job at Goss. The
                                     invoices totaled over $200,000 in bogus charges. Most of the victim companies wired
                                     payments for the fraudulent invoices to Zephyr bank accounts in the United States, which
                                     Bender and Wilson divided between themselves over a four‑year period.


                                     Wilson pleaded guilty last year to three counts of wire fraud in connection with this scheme
                                     and was later sentenced to one year and one day in prison.


                                     Ex-Im Bank OIG investigated the case and Assistant United States Attorney Mark S.
                                     Zuckerman was the prosecutor.


                                     Export Credit Insurance & Loan Guarantee Program
                                     One of Ex-Im Bank’s key programs—the export credit insurance program—has been
                                     particularly susceptible to fraud schemes by foreign borrowers, U.S. based exporters, and




40   Office of Inspector General | Export-Import Bank of the United States
other transaction participants. This program accounts for several investigations currently
underway. While there are several different programs in Ex-Im Bank, criminal activity
exploits certain processes within the programs in order to induce Ex-Im Bank to approve
insurance or guaranteed coverage.


Export Credit Insurance Program
This program offers protection in the form of several different insurance policy types to
U.S. exporters and their lenders against non-payment by foreign buyers due to commercial
and political risks. Export credit insurance allows exporters to increase export sales by
                                                                                                           Successful investigative
limiting international repayment risk, offering credit to international buyers, and enabling
                                                                                                           efforts within the export credit
exporters to access working capital funds. One fraudulent scheme used to exploit this
                                                                                                           insurance program during this
program involves the falsification of shipping records to convince Ex-Im Bank that the                     reporting period resulted in
described goods have been shipped when in fact they have not.                                              $12,860,000 in forfeitures.


Successful investigative efforts within the export credit insurance program during the
reporting period include the reports noted below.

Denver Businessman Sentenced to 30 Months in Prison
On May 14, 2013, Luis E. Moy, the owner of a steel supply company in Denver, Colorado,
was sentenced to 30 months in prison for his role in a scheme to defraud Ex-Im Bank of
approximately $11,183,275.


Moy was sentenced by Judge Lewis Babcock in U.S. District Court in Denver. Moy pleaded
guilty on May 16, 2012 to one count of conspiracy to commit wire fraud and one count of
wire fraud in connection with a scheme to defraud Ex-Im Bank. In addition to his prison
term, Moy was sentenced to 60 months of supervised release and was ordered to pay
$11,183,275 in forfeiture.


According to court documents, Moy, a legal permanent resident, was the owner of a
metal building design and export business in Denver. Moy admitted that between 2004
and 2009, he acted as the exporter in 11 fraudulent Ex-Im Bank insured or guaranteed
loans totaling $11,183,275. Moy admitted that he and others entered into a conspiracy and
scheme to fraudulently obtain and misappropriate loan proceeds for personal use rather
than to purchase and export U.S. manufactured products into Mexico. Moy admitted that
he and others conspired to make false statements about the purchase of U.S. manufactured
equipment, supplied false invoices, and falsified other records to fraudulently represent to
the lending bank and Ex-Im Bank the purchase and export of U.S. goods to various buyers
in Mexico. Moy admitted that he retained approximately $1,249,010 for his own personal
use and benefit. As a result of the fraud, all of the loans defaulted, causing Ex-Im Bank to
pay $7,486,861 in claim payments to the lending bank.



                                                                  Office of Inspector General | Export-Import Bank of the United States       41
                  Office of Investigations


                                     The U.S. Department of Justice Criminal Division Fraud Section and the U.S. Attorney’s
                                     Office for the District of Colorado prosecuted the case. The case was investigated by the
                                     Ex‑Im Bank OIG, Homeland Security Investigations in El Paso, and the Federal Bureau of
                                     Investigation in Washington, DC.

                                     Miami Businesswoman Sentenced
                                     On September 10, 2013, Judge Donald L. Graham, U.S. District Court for the Southern
                                     District of Florida, sentenced Teolinda Briseyda Angeles, an owner of an electronics company
                                     in Miami, Florida, to serve one year and one day in prison for her role in a scheme to
                                     defraud Ex-Im Bank of nearly $446,876.


                                     Judge Graham also sentenced Angeles to 36 months of supervised release and ordered
                                     her to pay $446,876 in restitution and $1,384,666 in criminal forfeiture. Angeles pleaded
                                     guilty on June 26, 2013, to one count of conspiracy to commit wire fraud and one count of
                                     wire fraud in connection with a scheme to defraud Ex-Im Bank of approximately $446,876.
                                     Angeles was born in Peru and is a lawful permanent resident of the United States.


                                     According to court documents, Angeles was the owner of BNB Pembroke Pines, Inc.,
                                     a computer and electronics company located in Miami that purported to be in the business
                                     of exporting computers and electronic equipment to buyers in South America. According to
                                     court records, Angeles admitted that she and co-conspirators created false invoices, shipping
                                     documents, financial statements, and other documents that were submitted to a Miami
                                     finance company. The false documents were ultimately submitted to Ex-Im Bank to insure the
                                     financial transaction. Angeles admitted that, in fact, none of the merchandise was exported.
                                     Angeles received a total of $1,384,666 in Ex-Im Bank insured loan proceeds and ultimately
                                     defaulted on her loan, causing a loss to Ex-Im Bank and the U.S. government of $446,876.


                                     The case was prosecuted by the Fraud Section of the U.S. Department of Justice Criminal
                                     Division and investigated by the Ex-Im Bank OIG. Significant assistance in this ongoing
                                     investigation was provided by INTERPOL in Washington, D.C. and the U.S. Department of
                                     Justice, Office of International Affairs.


                                     Angeles’ sentencing is part of an ongoing OIG investigation into a network of export credit
                                     insurance fraud schemes involving exports into South America that, to date, have resulted
                                     in criminal charges against seven defendants, seven convictions, and almost $15 million in
                                     court ordered criminal forfeiture and restitution. One fugitive had fled to Argentina
                                     where he was captured in December of 2011 and is awaiting extradition back into the
                                     United States.




42   Office of Inspector General | Export-Import Bank of the United States
Mexican Farm Owner Sentenced
On September 11, 2013, Judge Kathleen Cardone, U.S. District Court in El Paso, Texas,
sentenced Alfredo Rodela-Campos, a Mexican farm owner, to serve three years of
probation for his role in a scheme to defraud Ex-Im Bank of approximately $291,550.


In addition to his term of probation, Rodela was ordered to pay $154,463 in restitution and
$291,500 in forfeiture. Rodela, a citizen of Mexico, pleaded guilty on January 8, 2013, to
one count of money laundering conspiracy, one count of conspiracy to commit wire fraud,
and one count of wire fraud.


According to court documents, Rodela was the owner of a farm in Chihuahua, Chihuahua,
Mexico. Rodela admitted that he and co-conspirators created false invoices, shipping
documents, financial statements, and other documents that were submitted to a bank in
                                                                                                          OIG’s investigation into
Miami, FL. The false documents, which purported to purchase construction equipment,
                                                                                                          a network of export credit
were ultimately submitted to Ex-Im Bank to insure the financial transaction. Rodela admitted
                                                                                                          insurance fraud schemes
that none of the equipment was purchased or exported. Instead, Rodela and his co-                         involving exports into South
conspirators split the Ex-Im Bank insured loan proceeds and ultimately Rodela defaulted on                America have resulted in seven
his loan in late 2007, causing a loss to Ex-Im Bank and the U.S. government of $257,463.                  convictions and $15 million in
                                                                                                          forfeiture and restitution.
The U.S. Department of Justice Criminal Division Fraud Section and the U.S. Attorney’s
Office, Western District of Texas, El Paso Division prosecuted the case. Ex-Im Bank OIG,
Homeland Security Investigations in El Paso; Internal Revenue Service-Criminal Investigation
in Washington, D.C., and the U.S. Postal Inspection Service in Washington, D.C., investigated
the case.


Loan Guarantee Program
Ex-Im Bank assists exporters by guaranteeing term financing from a commercial lender
to creditworthy international buyers, both private and public sector, for purchases of U.S.
goods and services. Ex-Im Bank’s guarantee of a lender’s loan to an international buyer is
used to finance purchases of U.S. goods and services. Criminals have exploited this program
by submitting false financial statements of foreign borrowers in order to induce Ex-Im Bank
to provide its guarantee coverage for a loan for which they might otherwise be ineligible,
and by submitting false documentation to the guaranteed lender and Ex-Im Bank regarding
the shipment, nature, or quantity of the U.S. goods allegedly being exported.




                                                                 Office of Inspector General | Export-Import Bank of the United States     43
                  Office of Investigations


                                     Successful investigative efforts within the loan guarantee program during the reporting
                                     period include the following:

                                     Colombian Businessman Sentenced
                                     On April 19, 2013, Juan Carlos Schwartzman, the owner of a trade finance consulting
                                     company in Miami, Florida and Barranquilla, Colombia, South America, was sentenced by
                                     Judge Reginald Walton in the U.S. District Court, Washington, D.C., to serve 30 months in
                                     prison for his role in a scheme to defraud Ex-Im Bank of approximately $8,100,000.


                                     Schwartzman pleaded guilty on July 8, 2011 to one count of conspiracy to commit mail
                                     fraud and wire fraud. In addition to his prison term, Schwartzman was sentenced to serve
                                     36 months of supervised release and was ordered to pay $10,179,335 in restitution and
                                     $8,162,582 in forfeiture.


                                     According to court documents, Schwartzman, a Colombian citizen with permanent
                                     residency status in the United States, resided in Florida and owned J.C. Schwartzman &
                                     Associates, a trade finance consulting firm used to assist several Colombian buyers obtain
                                     lender financing guaranteed by Ex-Im Bank. Schwartzman admitted that from March 2005
                                     through October 2007, he and other co-conspirators devised a scheme to unlawfully enrich
                                     themselves by submitting and/or causing the submission of fraudulent information to Ex-Im
                                     Bank, through lending banks and U.S. exporters, in order to obtain and misappropriate
                                     loan proceeds. Schwartzman admitted that he and others prepared and submitted false
                                     applications, financial statements, invoices, and shipping records which falsely reflected
                                     that goods were purchased and shipped to buyers in Colombia. Schwartzman admitted
                                     that he and others distributed, amongst themselves, the difference in the loan amounts
                                     and the purchase price of less valuable goods that were actually purchased and shipped.
                                     Schwartzman further admitted that he and others transferred the money by wire between
                                     and among their bank accounts to disguise the nature, source, and purpose of the monies,
                                     and they allowed the loans to default, triggering Ex-Im Bank’s obligation to cover the debts.
                                     As a result of the defaulted loans, Ex-Im Bank paid the lenders or loan assignees for the
                                     defaulted amounts of $8,503,567.


                                     The case was prosecuted the U.S. Department of Justice Criminal Division Fraud Section. Ex‑Im
                                     Bank OIG and the U.S. Postal Inspection Service in Washington, D.C. investigated the case.

                                     Fugitive Surrenders at Texas Border
                                     On Tuesday, April 23, 2013, fugitive Maria de Jesus Ortiz-Saldivar (Ortiz-Saldivar) surren-
                                     dered at the U.S. Border in El Paso, Texas and was arrested for her role in a scheme to
                                     defraud Ex-Im Bank.




44   Office of Inspector General | Export-Import Bank of the United States
Ortiz-Saldivar, a Mexican citizen and former accountant for Centro Oncolgico de Norte
S.A., a purported cancer treatment center in Ciudad Juarez, Chihuahua, Mexico, was
charged with bank fraud and wire fraud conspiracy in a federal indictment unsealed on
October 19, 2011, in the Western District of Texas. Ex-Im Bank OIG and Homeland Security
Investigations agents arrested Ortiz-Saldivar at the U.S. port of entry in El Paso, Texas based
on a federal arrest warrant issued subsequent to her indictment.


Between January 2005 and February 2009, according to the U.S. indictment and court
documents, Ortiz-Saldivar and her co-conspirators allegedly conspired to obtain Ex-Im Bank
guaranteed loans through lending banks by creating false loan applications, false financial
statements and other documents purportedly for the purchase and export of U.S. goods
into Mexico. Ortiz-Saldivar and her co-conspirators allegedly devised a scheme to defraud
Ex-Im Bank and a lending bank and to unlawfully enrich themselves by submitting false
information to obtain and to misappropriate loan proceeds. As a result of the alleged fraud,
the conspirators’ loans defaulted, causing Ex-Im Bank to pay claims to lending banks on a
loss of over $2.5 million.


Law enforcement agents continue to seek the arrest and extradition of the following
fugitives in Mexico who are related to this investigation: Gilberto Ruiz, Sergio Acosta-
Camacho, Adrian Rascon-Chavez, Genoveva Fontes de Rascon, Jorge Valdez-Cota, Veronica
Iglesias-Lucero, Pedro Ruvalcaba, and Estansilao Reyes-Chavarria.


The case is being prosecuted by the U.S. Department of Justice Criminal Division Fraud
Section and the U.S. Attorney’s Office, Western District of Texas, El Paso Division.

Mexican Farm Owner Sentenced
On April 24, 2013, Jaime Galvan-Guerrero, a Mexican farm owner, was sentenced by Judge
Kathleen Cardone in U.S. District Court in El Paso, Texas to serve 60 months of supervised
release for his role in a scheme to defraud Ex-Im Bank of approximately $825,563.


In addition to his term of probation, Galvan was ordered to pay $825,563 in forfeiture and
a $2,000 fine. Galvan, who is a citizen of Mexico, plead guilty on August 3, 2011, to one
count of conspiracy to commit wire fraud and one count of wire fraud in connection with
a scheme to defraud Ex-Im Bank of approximately $825,000.


According to court documents, Galvan was the purported owner of a farm in Delicias,
Chihuahua, Mexico. Galvan admitted that he and co-conspirators created false invoices,
shipping documents, financial statements, and other documents that were submitted to a
Baltimore, Maryland finance company. The false documents, which purported to purchase
construction equipment, were ultimately submitted to Ex-Im Bank to guarantee the financial



                                                                  Office of Inspector General | Export-Import Bank of the United States   45
                       Office of Investigations


                                          transaction. Galvan admitted that none of the equipment was purchased or exported.
                                          Instead, Galvan and his co-conspirators split the Ex-Im Bank insured loan proceeds and
                                          ultimately Galvan defaulted on his loan in late 2007, causing a loss to Ex-Im Bank and the
                                          U.S. government of $725,522. Between 2007 and 2010, Galvan paid back most of his
                                          debt to the government. After his arrest in 2010, Galvan paid off the remaining balance of
                                          approximately $150,000 to Ex-Im Bank.


                                          The U.S. Department of Justice Criminal Division Fraud Section and the U.S. Attorney’s
                                          Office, Western District of Texas, El Paso Division prosecuted the case. Ex-Im Bank OIG;
     Successful investigative
                                          Homeland Security Investigations in El Paso; Internal Revenue Service-Criminal Investigation
     efforts within the loan
                                          in Washington, D.C.; and the U.S. Postal Inspection Service in Washington, D.C. investigated
     guarantee program resulted
     in more than $20,000,000
                                          the case.
     in forfeitures or an average
                                          El Paso Shipping Company Owner Sentenced
     forfeiture of $2,860,000
                                          On July 17, 2013, Octavio Maese-Cordero, the owner of a trucking and shipping company
     per sentencing.
                                          in El Paso, Texas, was sentenced to serve 18 months in prison for his role in a scheme to
                                          defraud Ex‑Im Bank of approximately $2,371,860.


                                          Judge David Briones, of the U.S. District Court in El Paso, Texas, also sentenced Maese
                                          to 36 months of supervised release and ordered Maese to pay $1,742,89 in restitution,
                                          $2,371,859 in forfeiture, and a $200 special assessment fee. Maese, a naturalized U.S.
                                          citizen, pled guilty on September 16, 2011, to one count of conspiracy to defraud the
                                          United States and one count of wire fraud in connection with a scheme to defraud Ex-Im
                                          Bank of approximately $2,371,860.


                                          According to court documents, Maese was the owner of Jorsa Logistics and OMC Services,
                                          shipping and trucking companies both located in El Paso. Maese admitted that he and co-
                                          conspirators created and signed false shipping documents that were submitted to a lending
                                          bank in Baltimore, Maryland. The false shipping documents, which purported the shipment
                                          of construction equipment to Mexico, were ultimately submitted to Ex-Im Bank to insure
                                          the financial transaction. Maese admitted that, in fact, none of the construction equipment
                                          was purchased or exported to Mexico. Maese and his co-conspirators caused a loss to Ex-
                                          Im Bank and the U.S. Government of $2,371,859.


                                          The U.S. Department of Justice Criminal Division Fraud Section and the U.S. Attorney’s
                                          Office, Western District of Texas, El Paso Division prosecuted the case. Ex-Im Bank OIG;
                                          Homeland Security Investigations in El Paso; Internal Revenue Service-Criminal Investigation
                                          in Washington, D.C.; and the U.S. Postal Inspection Service in Washington, D.C. investigated
                                          the case.




46        Office of Inspector General | Export-Import Bank of the United States
Mexican Ranch Owner Sentenced
On July 29, 2013, Judge Philip R. Martinez, U.S. District Court in the Western District of
Texas, El Paso Division, sentenced Osvaldo Kuchle-Lopez to six months of time served
and 24 months of supervised release for his role in a scheme to defraud Ex-Im Bank of
approximately $3.21 million.


Federal law enforcement agents arrested Kuchle, a ranch owner in Mexico, on February
17, 2010 as he crossed the border into the United States. Kuchle subsequently pleaded
guilty on October 8, 2010, to one count of conspiracy in connection with a scheme to
                                                                                                          Ex-Im Bank OIG
defraud Ex-Im Bank. In addition, Kuchle was ordered to pay a $10,000 fine. Since his arrest
                                                                                                          investigators regularly
in 2010, Kuchle has paid $2.9 million in restitution to Ex-Im Bank.
                                                                                                          cooperate with:
                                                                                                          •  Department of Justice
According to court documents, Kuchle admitted that between 2003 and 2004, he acted                        •  U.S. Attorney offices
as the buyer in a fraudulent Ex-Im Bank insured loan. Kuchle admitted that he and others                  •  Federal Bureau of Investigation
entered into a conspiracy and scheme to defraud a lending bank and Ex-Im Bank to obtain                   •  Homeland Security
and misappropriate loan proceeds for personal use rather than to purchase and export                        Investigations
U.S. manufactured products into Mexico. Kuchle admitted that he and others conspired to                   •  Internal Revenue Service,

make false statements about the purchase of U.S. manufactured equipment, supplied false                     Criminal Investigations
invoices, and falsified other records to fraudulently represent to the lending bank and Ex-Im             •  INTERPOL

Bank the purchase and export of U.S. goods to various buyers in Mexico.                                   •  U.S. Postal Inspections Service



The case was prosecuted by the United States Attorney’s Office for the Western District
of Texas, El Paso Division. Ex-Im Bank OIG, Federal Bureau of Investigation in El Paso, and
Homeland Security Investigations in El Paso investigated the case.

El Paso Business Owner Sentenced
On August 29, 2013, Victor Gonzalez was sentenced by Judge Kathleen Cardone in U.S.
District Court in El Paso, Texas, to 10 months home confinement for his role in a scheme
to defraud Ex‑Im Bank of approximately $1,976,000.


Gonzalez pleaded guilty on August 25, 2011, to one count of money laundering conspiracy
and one count of money laundering concealment. Gonzalez was also sentenced to 60
months of supervised release and was ordered to pay $1,976,320 in restitution and
$3,801,833 in forfeiture.


According to court documents, Gonzalez, a legal permanent resident alien residing in El
Paso, Texas, was the owner of Gaviv S.A., an El Paso based export company. Gonzalez
admitted that from early 2005 until May 2007, he was involved with other co-conspirators
in obtaining seven loans from a lending bank, all of which were guaranteed by Ex-Im Bank.
Gonzalez admitted that he acted as an exporter in some transactions and utilized his bank



                                                                 Office of Inspector General | Export-Import Bank of the United States      47
                  Office of Investigations


                                     account to transfer illicit Ex-Im Bank loan proceeds to buyers in Mexico. Gonzalez admitted
                                     that he assisted four of the foreign buyers in preparing fraudulent shipping documents,
                                     false invoices, false bills of lading, and other documents indicating the equipment had
                                     been exported to Mexico. Gonzalez admitted that all of the loans he was involved in were
                                     fraudulent and none of the U.S. goods listed on the invoices were ever shipped to the
                                     Mexican buyers in any of the loans. Court records indicate Gonzales and others would
                                     retain portions of the loan proceeds for their own use and benefit before transferring the
                                     funds to other co-conspirators. As a result of the fraud, five of the loans defaulted causing
                                     Ex-Im Bank to pay claims losses to the lending bank in the amount of $1,976,320.


                                     The U.S. Department of Justice Criminal Division Fraud Section and the U.S. Attorney’s
                                     Office, Western District of Texas, El Paso Division prosecuted the case. Ex-Im Bank OIG;
                                     Homeland Security Investigations in El Paso, Texas; Internal Revenue Service-Criminal
                                     Investigations in Washington, D.C.; and the U.S. Postal Inspections Service in Washington,
                                     D.C. investigated the case.

                                     Mexican Farmer Sentenced
                                     On August 29, 2013, Jesus Armando Bustillos, from Namiquipa, Chihuahua, Mexico, was
                                     sentenced to 24 months of supervised release for his role in a scheme to defraud Ex-Im
                                     Bank of approximately $1,209,000. Judge Kathleen Cardone in U.S. District Court in El
                                     Paso, Texas sentenced Bustillos.


                                     Judge Cardone also ordered Bustillos to pay $571,002 in restitution and $1,399,029 in
                                     forfeiture. Bustillos, a Mexican citizen, pled guilty on January 30, 2012, to one count of
                                     conspiracy to commit wire fraud, one count of wire fraud, and one count of money-
                                     laundering conspiracy.


                                     According to court documents, Bustillos was the owner of a fruit orchard located in
                                     Namiquipa, Chihuahua, Mexico. Bustillos admitted that, from December 2004 to May
                                     2010, he acted as a buyer in an Ex-Im Bank guaranteed loan transaction for the purported
                                     purchase and importation of U.S. manufactured agricultural equipment. Bustillos admitted
                                     that instead of receiving the agricultural equipment, he and others falsified bills of lading
                                     and other purchase and export documents and submitted them to the lending bank located
                                     in Baltimore, Maryland and causing Ex-Im Bank to disburse $426,376 in loan proceeds to
                                     Bustillos. Additionally, Bustillos admitted that between August 2006 and November 2007, he
                                     also acted as a promoter in another fraudulent Ex-Im Bank guaranteed loan in the amount of
                                     approximately $782,000. Bustillos received $70,500 for his role in this second loan.


                                     The U.S. Department of Justice Criminal Division Fraud Section and the U.S. Attorney’s
                                     Office, Western District of Texas, El Paso Division prosecuted the case. Ex-Im Bank OIG;




48   Office of Inspector General | Export-Import Bank of the United States
Homeland Security Investigations in El Paso, Texas; Internal Revenue Service-Criminal
Investigation in Washington, D.C., and the U.S. Postal Inspection Service in Washington,
D.C., investigated the case.

Mexican Refrigeration Company Owner Sentenced
On August 29, 2013, Judge Kathleen Cardone, U.S. District Court in El Paso, Texas,
sentenced Alexis Papatheodorou-Schmill to 24 months of supervised release for his role in
a scheme to defraud Ex‑Im Bank of approximately $649,000.


Papatheodorou pleaded guilty on June 16, 2010, to one count of conspiracy to commit wire
fraud and one count of wire fraud. In addition to probation, Papatheodorou was ordered to
pay $527,378 in restitution and $553,148 in forfeiture.


According to court documents, Papatheodorou, a Mexican citizen residing in Ciudad Juarez,
Mexico, was the owner of a refrigeration company. Papatheodorou admitted that from
October 2006 until February 2009, he was involved with other co-conspirators in obtaining
a loan from a private lending bank, which was guaranteed by Ex-Im Bank. Papatheodorou
admitted that he and others created fraudulent shipping documents, false invoices, false
bills of lading, and other documents indicating equipment had been exported to Mexico
and purchased by Papatheodorou. Because of the fraud, Papatheodorou’s loan defaulted
causing Ex-Im Bank to pay a claim to the lending bank in the amount of $553,148.


The U.S. Department of Justice Criminal Division Fraud Section and the U.S. Attorney’s
Office, Western District of Texas, El Paso Division prosecuted the case. Ex-Im Bank OIG;
Homeland Security Investigations in El Paso, Texas; Internal Revenue Service-Criminal
Investigations in Washington, D.C.; and the U.S. Postal Inspections Service in Washington,
D.C., investigated the case.



Other Investigative Results
Special Agents Work Collaboratively with Ex-lm Bank to Help Protect Funds at Risk
To the extent permissible and within the confines and limitations of an investigation,
OI Special Agents work collaboratively to share investigative intelligence with the Ex-Im
Bank Office of General Counsel, Credit and Risk Management Division, and Asset Manage-
ment Division to help identify potential and suspected fraudulent activity within its
transactions and to protect funds at risk.


During this reporting period, OI communicated with Ex-Im Bank management to enhance
the monitoring of several existing transactions and due diligence reviews of proposed
transactions based on developed investigative leads. We shared active law enforcement




                                                                 Office of Inspector General | Export-Import Bank of the United States   49
                  Office of Investigations


                                     intelligence with Ex‑Im Bank on several matters concerning suspected criminal activity by
                                     participants involved in active policies or transactions under review. As an example, OI
                                     coordination with the U.S. Department of Justice and Ex-Im Bank helped to facilitate two
                                     administrative actions resulting in the direct repayment and collection of outstanding debt
                                     by responsible parties in amounts totaling $110,000.


                                     In another matter, investigative intelligence was shared with the Ex-Im Bank Office of
                                     General Counsel regarding a subject investigated by both the OIG and other law enforce-
                                     ment agencies. The investigation found the subject had obtained an Ex-Im Bank Short
                                     Term insurance policy in 2010 and had recently obtained a policy credit limit increase to
                                     $750,000. As a result of shared intelligence, the subject’s policy was amended and then
                                     was subsequently canceled by Ex-Im Bank to protect funds at risk.


                                     Additionally, during this reporting period, OI made 37 referrals of investigative information
                                     to Ex‑Im Bank Office of General Counsel concerning potential fraud and funds at risk for
                                     enhanced due diligence by Ex-Im Bank.


                                     These efforts are part of the OI objective to expeditiously protect funds at risk con-
                                     current in monitoring, oversight, and collection efforts involving transactions in which
                                     fraud is uncovered.


                                     Outreach—OIG Continues Efforts to Educate the Export Community
                                     on Identifying and Reporting Fraud, Waste, and Abuse
                                     As part of the OIG’s mission to prevent and detect fraudulent activity, efforts have been
                                     made to meet with and educate stakeholders and other law enforcement partners about
                                     the various risks and fraud scenarios most commonly seen in trade finance and export
                                     credit fraud cases.


                                     On September 16, 2013, OI representatives met with Senior Vice Presidents, senior staff,
                                     and analysts from the Anti-Money Laundering and Credit/Trade Finance teams of Espirito
                                     Santo Bank in Miami, Florida. OI discussed common fraud scenarios and money laundering
                                     patterns often seen in trade finance fraud investigations and provided information
                                     regarding the role and responsibility of the OIG in combatting fraud, waste, and abuse.


                                     On September 23, 2013, OI representatives met with Ex-Im Bank Asset Management Division
                                     (AMD) leaders to share common fraud scenarios and money laundering patterns often seen
                                     in trade finance fraud investigations and provide updated information regarding the role and
                                     responsibility of the OIG in combatting fraud, waste, and abuse. OI recommended several
                                     software purchases for AMD so they could improve their collection and due diligence efforts.




50   Office of Inspector General | Export-Import Bank of the United States
During this period, OI continued to meet with representatives from the GAO in order to
                                                                                                             OIG staff received
discuss fraud risks and various fraud scenarios often seen and investigated by the OIG. The
                                                                                                             these certifications:
purpose of the meetings was to discuss the structure, organization, and authority of the
                                                                                                             •  Certified Fraud Examiner
OI investigative team and to outline some of the various fraud risks associated with Ex-Im                   •  Certified Anti-Money
Bank programs.                                                                                                 Laundering Specialist

                                                                                                             Additionally, the OIG has
In June 2013, the OIG became a designated law enforcement partner with the Association
                                                                                                             partnered with the Association
of Certified Fraud Examiners in Austin, Texas. One investigator had completed the require-
                                                                                                             of Certified Fraud Examiners.
ments to become a Certified Fraud Examiner (CFE) in 2010. Two additional OIG employees
earned their CFE certifications within the past six months; the OIG currently has three
employees with CFE designations.


Also, during this period, one OI agent was designated as a Certified Anti-Money Laundering
Specialist through the Association of Certified Anti-Money Laundering Specialists in Miami, FL.


Through the above certifications and professional associations, the OIG has an increased
liaison with the anti-fraud and anti-money laundering communities and the OI mission
is enhanced through cooperative training, intelligence sharing, and contacts within the
communities.



Hotline Activity
The Ex-Im Bank OIG maintains a hotline to receive reports of fraud, waste, and abuse in
Ex‑Im Bank programs and operations. Hotline reports are evaluated by our investigative
team and, based on the available evidence, may result in the initiation of an investigation,
audit, referral to other law enforcement authorities having jurisdiction, or referral to
management for administrative action.


The OIG received four hotline reports during the reporting period. Two were referred for
investigation and two were resolved and closed by the hotline.


Hotline reports can be made by any of the following methods:
   •  phone     at 1-888-OIG-EXIM (1-888-644-3946)
   •  email    to IGhotline@exim.gov
   •  mail   or delivery service to Office of Inspector General Hotline; Export-Import Bank of
     the U.S.; 811 Vermont Ave. NW; Washington DC 20571


The OIG will not disclose the identity of a person making a report through the hotline
without their consent unless the IG determines such disclosure is unavoidable during the
course of an investigation.



                                                                    Office of Inspector General | Export-Import Bank of the United States     51
Appendix A
Recommendations from
prior reporting periods
This table shows that 34 of 68 total recommendations are from five reports issued during
the prior reporting periods. Fifteen of the total 49 open recommendations are from the
reports issued during the last period.

                                                  Recommendations
                                                                                Latest target
 Report Date      Report Title              Total Open Closed Unresolved        closure date
 Last Period
 Audits
 OIG-AR-13-04     FY 2012 Information        3     3      0           0            11/15/13
                  Security Program and
 22 Mar 2013
                  Practices Audit
 OIG-AR-13-03     Export-Import Bank’s       5     4      1           0            11/30/13
                  Improper Payments
 14 Mar 2013
                  Reporting for FY 2011
 OIG-AR-13-02     FY 2012 Financial          8     8      0           0            11/15/13
                  Statement
 23 Jan 2013
                  Management Letter
 Prior Periods
 Audits
 OIG-AR-12-05     Audit of Export-Import     10    2      4           4              None
                  Bank’s Short-Term                                                Provided
 28 Sep 2012
                  Insurance Program
 OIG-AR-12-04     Audit of Information       11    7      4           0              None
                  Technology Support for                                           Provided
 24 Jan 2012
                  Export-Import Bank’s
                  Mission
 Inspections and Evaluations
 OIG-INS-12-02    Report on Portfolio        7     5      0           2             4/30/14
                  Risk and Loss Reserve
 27 Sep 2012
                  Allocation Policies
 OIG-INS-12-01    Report on Performance      8     4      4           0             4/30/14
                  Metrics for Operational
 27 Mar 2012
                  Efficiency and
                  Customer Service,
                  Phase 1
 OIG-EV-10-03     Evaluation Reporting       16    16     0           0             None
                  Relating to Economic                                             provided
 17 Sep 2010
                  Impact Procedures

                                   Totals   68     49    13           6




                                                              Office of Inspector General | Export-Import Bank of the United States   53
Appendix B
Peer review reporting
This appendix complies with Section 5(a)(14)-(16) of the IG Act of 1978, as amended.



Of the audit function
Under government standards, OIG audit functions must have an external peer review at
least every three years. The next peer review of OIG audit functions will be in 2014.



Of the investigation function
As of July 2011, Ex-Im Bank OIG derives its law enforcement authority from Section 6(e) of
the IG Act of 1978, as amended. As such, the OIG is required to undergo an external peer
review process of our investigative function every three years. The peer review is scheduled
for summer 2014.



Of other OIGs
The Ex-Im Bank OIG did not complete a peer review of any other OIG during this reporting
period. It began a peer review of the audit function of the Commodity Futures Trading
Commission (CFTC) in fall 2013. This peer review should be concluded during the next
semiannual period. No peer reviews of investigation divisions of other OIGs are scheduled
at this time.




                                                                Office of Inspector General | Export-Import Bank of the United States   55
Appendix C
Abbreviations and Acronyms
Acronym      Definition
ACFE         Association of Certified Fraud Examiners
AMD          Asset Management Division, Export-Import Bank
APP          Annual Performance Plan
BCL          Budget Cost Levels
CAMS         Certified Anti-Money Laundering Specialist
CFE          Certified Fraud Examiner
CIGIE        Council of Inspectors General on Integrity and Efficiency
CRTI         Character, Reputational, and Transaction Integrity
EPCM         Engineering, Procurement, and Construction Management
EX-IM BANK   Export-Import Bank of the United States
FISMA        Federal Information Security Management Act of 2002
FY           Fiscal Year
GAO          U.S. Government Accountability Office
             Government Performance and Results Act of 1993 and
GPRA
             Government Performance and Results Act Modernization Act of 2010
IDA          Individual Delegated Authority
IG           Inspector General
INTERPOL     International Criminal Police Organization
IPA          Independent Public Accountant
IPERA        Improper Payments Elimination and Recovery Act of 2010
IT           Information Technology
LNG          Liquid Natural Gas
OA           Office of Audits, Office of Inspector General, Export-Import Bank
OI           Office of Investigations, Office of Inspector General, Export-Import Bank
             Office of Inspections and Evaluations, Office of Inspector General,
OIE
             Export-Import Bank
OIG          Office of Inspector General, Export-Import Bank
OMB          Office of Management and Budget, The White House
PNG          Papua New Guinea
PPD          Presidential Policy Directive




                                                                  Office of Inspector General | Export-Import Bank of the United States   57
Appendix D
Inspector General Act
Reporting Requirements
Inspector General
   Act citation                        Requirement definition                                 Page
Section 4(a)(2)      Review of Legislation and Regulations                                      9

Section 5(a)(1)      Significant Problems, Abuses, and Deficiencies                          11–15

                                                                                             24–25
Section 5(a)(2)      Recommendations for Corrective Actions
                                                                                             30–32
                     Prior Significant Audit Recommendations Yet to Be
Section 5(a)(3)                                                                                53
                     Implemented

Section 5(a)(4)      Matters Referred to Prosecutive Authorities                               39

Sections 5(a)(5)
                     Summary of Refusals to Provide Information                               None
and 6(b)(2)
                     Audit Products Issued Including Total Dollar Values
Section 5(a)(6)      of Questioned Costs, Unsupported Costs, and                              None
                     Recommendations that Funds Be Put to Better Use
                                                                                             24–25
Section 5(a)(7)      Summary of Particularly Significant Reports
                                                                                             30–32
                     Total Number of Reports and Total Dollar Value for Audits
Section 5(a)(8)                                                                               None
                     with Questioned Costs
                     Total Number of Reports and Total Dollar Value for Audits
Section 5(a)(9)                                                                               None
                     with Recommendations that Funds Be Put to Better Use
                     Summary of Prior Audit Products for which No Management
Section 5(a)(10)                                                                               53
                     Decision Has Been Made
                     Description and Explanation of Significant Revised
Section 5(a)(11)                                                                              None
                     Management Decisions
                     Significant Management Decisions with which the Inspector
Section 5(a)(12)                                                                              None
                     General Disagreed
                     Reporting in Accordance with Section 5(b) of the Federal
Section 5(a)(13)     Financial Management Improvement Act of 1996                             None
                     Remediation Plan
Sections 5(a)(14),
                     Peer Reviews Conducted and Outstanding Recommendations                    55
(15) and (16)




                                                                      Office of Inspector General | Export-Import Bank of the United States   59
How to report fraud, waste, and abuse
The Inspector General Act of 1978 states that the Inspector General (IG) may receive and
investigate complaints or information concerning the possible existence of an activity
constituting a violation of law, rules, or regulations, or mismanagement, gross waste of
funds, abuse of authority, or a substantial and specific danger to public health and safety.
Whether reporting allegations via telephone, mail, or in person, the OIG will not disclose
the identity of persons making a report without their consent unless the IG determines
such disclosure is unavoidable during the course of the investigation. You may submit your
complaint or information by these methods:


In person
  Office of Inspector General
  Export-Import Bank of the U.S.
  811 Vermont Avenue, NW
  Washington, D.C. 20571


Telephone
  1- 888-OIG-EXIM
  (1-888-644-3946)


Mail
  Office of Inspector General Hotline
  Export-Import Bank of the U.S.
  811 Vermont Avenue, NW
  Washington, D.C. 20571


E-mail
  IGhotline@exim.gov




                                                                                               3
OFFICE OF INSPECTOR GENERAL
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, D.C. 20571

Telephone 202.565.3908
Facsimile 202.565.3988

www.exim.gov/oig
